<html>
<title> - WINNING THE PEACE: COALITION EFFORTS TO RESTORE IRAQ</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





          WINNING THE PEACE: COALITION EFFORTS TO RESTORE IRAQ

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 8, 2003

                               __________

                           Serial No. 108-90

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

91-303              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 8, 2003..................................     1
Statement of:
    Brownlee, Les, Acting Secretary of the Army; Philo Dibble, 
      Principal Deputy Assistant Secretary of State, Bureau of 
      Near Eastern Affairs; Tom Korologos, senior advisor to 
      Ambassador L. Paul Bremer III, administrator of the 
      Coalition Provisional Authority; Major General Carl Strock, 
      U.S. Army, director of operations and infrastructure, 
      Coalition Provisional Authority; and Bernie Kerik, former 
      director of the interior, Coalition Provisional Authority..    14
    Haidari, Alaa H., Iraqi-American; Beate Sirota Gordon, 
      constitutional scholar; and Lamya Alarif, Iraqi-American...   148
Letters, statements, etc., submitted for the record by:
    Alarif, Lamya, Iraqi-American, prepared statement of.........   167
    Brownlee, Les, Acting Secretary of the Army, prepared 
      statement of...............................................    17
    Burgess, Hon. Michael C., a Representative in Congress from 
      the State of Texas, prepared statement of..................   193
    Chocola, Hon. Chris, a Representative in Congress from the 
      State of Indiana, prepared statement of....................   191
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia:
        Letter dated October 6, 2003.............................   182
        Prepared statement of....................................     5
    Dibble, Philo, Principal Deputy Assistant Secretary of State, 
      Bureau of Near Eastern Affairs, prepared statement of......    25
    Frelinghuysen, Hon. Rodney P., a Representative in Congress 
      from the State of New Jersey, prepared statement of........   140
    Gordon, Beate Sirota, constitutional scholar, prepared 
      statement of...............................................   160
    Haidari, Alaa H., Iraqi-American, prepared statement of......   150
    Kerik, Bernie, former director of the interior, Coalition 
      Provisional Authority, prepared statement of...............    39
    Korologos, Tom, senior advisor to Ambassador L. Paul Bremer 
      III, administrator of the Coalition Provisional Authority, 
      prepared statement of......................................    30
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............   124
    Rogers, Hon. Mike, a Representative in Congress from the 
      State of Michigan, prepared statement of...................   195
    Shuster, Hon. Bill, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............   196
    Van Hollen, Hon. Chris, a Representative in Congress from the 
      State of Maryland, followup questions and responses........   110
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    11

 
          WINNING THE PEACE: COALITION EFFORTS TO RESTORE IRAQ

                              ----------                              


                       WEDNESDAY, OCTOBER 8, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:13 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis of 
Virginia (chairman of the committee) presiding.
    Present: Representatives Tom Davis of Virginia, Shays, Ose, 
Platts, Miller, Murphy, Turner, Carter, Janklow, Blackburn, 
Waxman, Maloney, Cummings, Kucinich, Davis of Illinois, 
Tierney, Clay, Van Hollen, Sanchez, Ruppersberger, and Norton.
    Also present: Shuster, Rogers of Michigan, Shimkus, Walsh, 
Sherwood, Kolbe, Tiahrt, Hoekstra, Frelinghuysen, Pomeroy, 
Dicks, and Eddie Bernice Johnson of Texas.
    Staff present: Peter Sirh, staff director; Melissa Wojciak, 
deputy staff director; Keith Ausbrook, chief counsel; David 
Young and John Hunter, counsels; Robert Borden, counsel/
parliamentarian; Ellen Brown, legislative director and senior 
policy director; David Marin, director of communications; John 
Cuaderes, senior professional staff member; Teresa Austin, 
chief clerk; Brien Beattie, deputy clerk; Jason Chung, 
legislative assistant; Corrine Zaccagnini, chief information 
officer; Phil Barnett, minority chief counsel; Kristin Amerling 
and Michael Yeager, minority deputy chief counsels; Karen 
Lightfoot, minority communications director and senior policy 
advisor; Anna Laitin, minority communications and policy 
assistant; Jeff Baran, minority counsel; Earley Green, minority 
chief clerk; Jean Gosa, minority assistant clerk; and Cecelia 
Morton, minority office manager.
    Chairman Tom Davis. Good morning. A quorum being present, 
the Committee on Government Reform will come to order.
    I want to welcome everybody to today's hearing on the U.S. 
coalition efforts to restore peace, freedom, security, and 
dignity to the people of Iraq. On August 24th, I led an 11-
member bipartisan delegation to see firsthand our efforts in 
Iraq. Before leaving the United States, I had no real idea of 
what to expect on my visit. After all, most press accounts of 
our efforts in Iraq were full of gloom and doom. But what we 
witnessed was an Iraq of great promise, vibrancy and vitality. 
We saw a nation with potential and a people that were enjoying 
the fruits of freedom in its infancy. We saw a remarkable 
progress throughout the country, whether it was a hospital in 
Baghdad or a new police station in Mosul.
    We witnessed a busy market in Mosul where one could buy 
anything under the sun, including items that were forbidden 
under Saddam Hussein's regime, such as satellite dishes, one of 
the hottest selling items in the country. We met with newly 
elected regional council members--men and women, Kurds, Shiites 
and Sunnis--who spoke of embracing democratic values and 
representing all of Iraq, not just their own religions, tribes 
and home towns.
    We also witnessed the greatness of our military; not of 
their might, but of their humble actions in assisting a people 
in need. Our soldiers are firm in their resolve to stay until 
the job is finished. These young men and women are not only 
soldiers but also peacekeepers, and when called upon, diplomats 
and friends. There is no doubt, we still have a lot of work 
ahead of us. Our military is still in harm's way, but, from 
what I have seen, we can be successful as long as we remain 
steadfast, patient and committed.
    The coalition's work is far from over. Iraq is still a work 
in progress, and new challenges arise every day. We must 
overcome the many security threats that, to this day, continue 
to be the greatest challenge to our troops and the 
stabilization of Iraq. Rebuilding efforts, although well under 
way, and perhaps well ahead of schedule, will not succeed in 
the end if we cannot overcome the prevailing threats against 
those who are there to help.
    While I am confident that we will succeed in ridding Iraq 
of elements that want to see the coalition fail, we need to 
keep in mind several important lessons, such as: while the 
rotation of military forces in Iraq is essential, increasing 
the number of military personnel in the area may not be 
necessary or advisable to accomplish the mission.
    Second, reconstituting a qualified and effective Iraqi 
military police force and border protection guard is a key 
element to improving overall security in Iraq. The development 
of functioning institutions in a secure environment is 
essential to Iraq's success. Furthermore, the sooner Iraqis can 
take responsibility for their own affairs, the sooner U.S. 
forces can come home.
    For human intelligence to improve, we need the 
participation of Iraqi-Americans who have the skills, the 
knowledge and the willingness to assist in the intelligence 
gathering and analysis. However, we need to actively recruit, 
vet and train these individuals. In order for these people to 
be effective, we need to expedite the security clearance 
process. Iraqi citizens can provide vital intelligence about 
the whereabouts of weapons of mass destruction, but the 
coalition forces need the authorization to grant relocation and 
protective status to informants and their extended families.
    Saddam Hussein misappropriated much of the money loaned to 
Iraq for his own personal benefit to the detriment of the Iraqi 
people. My colleague, Congresswoman Carolyn Maloney, has 
introduced H.R. 2482, which could greatly benefit the people of 
Iraq by canceling Odious Debt in accordance with customary 
international law. This is potentially a very wealthy country, 
second largest oil reserves in the world, the Fertile Crescent 
there between the Tigris and the Euphrates River, the Garden of 
Eden, Ancient Mesopotamia, but with a debt structure that is 
four times the gross domestic product, no nation can survive 
under that structure, so that is obviously going to have be 
revisited as this country is succeeding.
    While operations in Iraq are still young--we are only 160 
days into the rebuilding effort--we have accomplished much. We 
are building schools, upgrading hospitals and modernizing the 
utilities infrastructure at a pace that surpasses operations we 
led after World War II, and we are well ahead of the pace of 
our reconstruction efforts in the Balkans.
    Still, most of the media accounts of post-war Iraq discuss 
rampant chaos and mismanagement. However, according to a public 
opinion poll conducted in August by the Zogby Group, more than 
two-thirds of those Iraqis who expressed an opinion wanted 
coalition troops to remain in Iraq for at least another year, 
and 70 percent of Iraqis said they expect their country and 
their personal lives to be better in 5 years.
    During our visit to Iraq, the delegation visited a site 
southwest of Baghdad, in a sector guarded by the U.S. Marines 
known as Al-Hillah. One cannot begin to describe this site. 
There are no landmarks to identify its location, but we know of 
this place because once we overthrew Saddam, the Iraqi people 
themselves were our guides. In those early days after we swept 
through this area, Iraqis by the dozens came to Al-Hillah to do 
something that is hard to put into words: they dug. Yes, many 
came to this nondescript place to dig, many with their bare 
hands. They dug because it is here that we learned of Saddam's 
brutality. Al-Hillah was a killing field. For reasons unknown 
except to Saddam and his henchmen, men, women and children were 
summarily executed over a span of many days. They were buried, 
and the process was repeated time and time again, people buried 
on top of one another. This was a scheme designed by a 
sociopath bent on crippling the Iraqi people. Now the people 
return, most with kitchen utensils and their hands, to find and 
dig up remains of loved ones.
    Under the protection of coalition forces, Iraqis are 
learning what it means to be free. Our role in Iraq has just 
begun, and it is a new fight, a fight that is far greater than 
simply ridding Iraq of Saddam Hussein. We need time, patience, 
and, most of all, the resolve to finish the job we started. The 
people of Iraq deserve no less. Our men and women serving in 
Iraq want to finish the job, and we need to support them while 
the Iraqi people savor freedom and bring stability to a region 
that desperately needs it.
    Through this hearing, the committee hopes to gain insight 
from the on-the-ground experience of the people performing 
reconstruction projects in Iraq, as well as the viewpoints of 
Iraqi-Americans, scholars and others who have recently observed 
the reconstruction process. I also welcome my colleagues, many 
of whom are not members of this committee but have traveled to 
Iraq and have their own views, emotions and experiences that 
they want to share.
    With that in mind, we have assembled an impressive group of 
witnesses to help us assess our efforts and our progress in 
Iraq. We will hear from the Department of Defense and the 
Coalition Provisional Authority. We will also receive input 
from some distinguished Iraqi-Americans, as well as a 
constitutional scholar who will provide us her thoughts 
regarding the inclusion of women's rights in the yet-to-be-
determined constitution. I want to thank all our witnesses for 
appearing before the committee; I look forward to their 
testimony. I also want to acknowledge and welcome the many non-
committee members attending today's hearing.
    Due to time constraints, we intend to limit opening 
statements, the ranking member and myself. Members will have 5 
legislative days to submit opening statements for the record. 
All Members will have ample opportunity to give their views and 
question today's witnesses. I do intend to recognize committee 
members first, followed by the other Members in order of their 
appearance.
    And, Mr. Waxman, I am going to have to leave in the middle 
of the hearing and come back, because we have bills that will 
be pending on the floor, but it shouldn't take much time, and I 
will yield at that point to another committee member to 
preside.
    I would now yield to my ranking member, Mr. Waxman, for his 
opening statement.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T1303.001
    
    [GRAPHIC] [TIFF OMITTED] T1303.002
    
    [GRAPHIC] [TIFF OMITTED] T1303.003
    
    [GRAPHIC] [TIFF OMITTED] T1303.004
    
    Mr. Waxman. Thank you very much, Mr. Chairman. I am very 
pleased that you have called this hearing on the important 
subject of the restoration efforts in Iraq, and I want to 
commend you for traveling there to seek firsthand information. 
All of us here share deep appreciation for the efforts of our 
military and our civilian employees in Iraq to promote 
stability in Iraq and improve the well-being of its citizens.
    Congressional oversight is essential to help ensure that 
reconstruction is proceeding in a manner that gets results and 
makes efficient use of American taxpayers' dollars. My own 
oversight efforts began in March, when I wrote the 
administration about the multi-billion dollar contract it 
entered into with Halliburton on a sole-source basis. Since 
then, I have written many other letters seeking basic 
information about how taxpayer funds are being spent in Iraq. 
This August I sent senior staff to Iraq to gather additional 
information as part of the chairman's delegation.
    Overall, this has been a frustrating process. Transparency 
is the only way to dispel public concern about the lucrative 
contracts that the administration has entered into with 
Halliburton, Bechtel and other large campaign contributors 
operating in Iraq. Yet, with the exception of the Corps of 
Engineers, the administration has provided virtually no 
meaningful information to Congress, or the public, about how it 
has spent taxpayers' dollars in Iraq. For example, in April I 
asked the Administrator of AID for basic information about the 
contracting process with respect to contracts worth over $1 
billion that were limited to only a few handpicked companies. 
AID has still not provided copies of the contracts or 
information on source selection. Despite a recommendation by 
the U.S. Army Corps of Engineers to allow public scrutiny of a 
no-bid sole-source oil field contract with Halliburton 
subsidiary Kellogg Brown & Root, the Defense Department 
continues to classify the details of the contract as a national 
security secret. The administration still has not responded to 
my letter on September 12th, requesting that it explain why the 
President's request for an additional $2.1 billion to repair 
Iraq's oil infrastructure is over 2.5 times larger than a 
detailed estimate prepared just a few months ago by the CPA, 
the Corps of Engineers and the Iraqi Ministry of Oil. This 
secrecy is simply unacceptable. Two companies alone, 
Halliburton and Bechtel, have been given contracts worth over 
$3 billion relating to the conflict and reconstruction in Iraq. 
Members of Congress and taxpayers who are footing this enormous 
bill should know how this money is being spent.
    While the administration has declined to respond to basic 
requests about its contracts, information I have received from 
a variety of sources is painting a disturbing picture. It 
appears that big American contractors are receiving too much 
money for too little work and too few opportunities are being 
afforded Iraqis. Members of the Iraqi Governing Council, for 
example, have told my staff that costs to the American 
taxpayers could be reduced by 90 percent if the projects were 
awarded to Iraqi contractors, rather than to large American 
companies. Anecdotal information from innovative field 
commanders in Iraq confirms this account.
    During the chairman's congressional delegation, the members 
and staff met with Major General David Petraeus, the general in 
charge of Northern Iraq. General Petraeus said that the U.S. 
engineers estimated that it would cost $15 million to bring a 
cement plant in Northern Iraq to western production standards. 
But because this estimate was substantially higher than funds 
available, General Petraeus gave the project to local Iraqis, 
who got the cement plant running for just $80,000. Think about 
this. General Petraeus reduced the cost to U.S. taxpayers by 99 
percent by using local Iraqi contractors instead of Halliburton 
or Bechtel.
    Many people don't realize this, but the billion dollar 
contracts with Bechtel and Halliburton are what is known as 
cost-plus contracts. These contracts are structured so that the 
bigger, the more complex and the more expensive the project, 
the greater the profits for these companies. This is obviously 
a good deal for the companies, but is it a good deal for the 
taxpayer?
    The administration's supplemental request for an additional 
$20 billion for reconstruction raises many questions. It 
includes numerous proposals for complex, state-of-the-art 
Western facilities that almost certainly will have to be 
performed by large government contractors under abuse-prone 
cost-plus contracts. Of the 115 discreet projects described by 
the CPA in the supplemental, fewer than 25 mention employment 
opportunities for Iraqis.
    I hope that the Army and CPA witnesses here today will be 
able to shed light on some of the questions about 
reconstruction contracts that remain unanswered to date, and I 
encourage the majority on this committee and in the rest of the 
Congress to move forward with the minority in conducting 
meaningful oversight of the restoration process in Iraq.
    Mr. Chairman, I hope this hearing will be a beginning of 
that opportunity for oversight. I thank you for holding this 
hearing, and I look forward to the testimony of the witnesses.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T1303.005
    
    [GRAPHIC] [TIFF OMITTED] T1303.006
    
    [GRAPHIC] [TIFF OMITTED] T1303.007
    
    Chairman Tom Davis. Thank you.
    I just want to say, on the cement plant, I remember talking 
to General Petraeus about that, and he awarded the contract to 
an Iraqi firm, but he never said it would be up to Western 
standards. But he did what he could with the money, and I know 
firsthand, and our witnesses can talk about this, that we are 
trying to give Iraqis as much of that work as we can, because 
their economy is a major part of what is happening. But our 
witnesses can address that, and we will have ample time to do 
questions and answers, so why don't we move to our panel?
    Members' written statements will be in the record, and all 
of you will have ample time under questions and answers to make 
statements.
    If you will all rise with me and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Please be seated.
    We have the Honorable Les Brownlee, the Acting Secretary of 
the Army, former staffer with Senator Warner, and we are happy 
to have you here; Philo Dibble, the Principal Deputy Assistant 
Secretary of State for the Bureau of Near Eastern Affairs; we 
have Tom Korologos, senior advisor to Ambassador Paul Bremer; 
U.S. Major General Carl Strock, who is the director of 
operations and infrastructure of the Coalition Provisional 
Authority; and Mr. Bernie Kerik, who is the former Director of 
the Interior, Coalition Provisional Authority and former police 
chief in New York.
    Why don't we start, Secretary Brownlee, with you, and we 
will move right down. I think you know the rules. Your entire 
statements are in the record. Our Members have a lot of 
questions and comments they are going to want to make, and I 
won't start with questions, I will start moving down the way. 
So welcome. And when the light turns orange, that means 4 
minutes are up, and when it is red, 5 minutes. We want to give 
you an opportunity to say what you need to say, but your entire 
statement is in the record, thank you.

STATEMENTS OF LES BROWNLEE, ACTING SECRETARY OF THE ARMY; PHILO 
 DIBBLE, PRINCIPAL DEPUTY ASSISTANT SECRETARY OF STATE, BUREAU 
   OF NEAR EASTERN AFFAIRS; TOM KOROLOGOS, SENIOR ADVISOR TO 
 AMBASSADOR L. PAUL BREMER III, ADMINISTRATOR OF THE COALITION 
 PROVISIONAL AUTHORITY; MAJOR GENERAL CARL STROCK, U.S. ARMY, 
     DIRECTOR OF OPERATIONS AND INFRASTRUCTURE, COALITION 
PROVISIONAL AUTHORITY; AND BERNIE KERIK, FORMER DIRECTOR OF THE 
           INTERIOR, COALITION PROVISIONAL AUTHORITY

    Secretary Brownlee. Mr. Chairman and distinguished members 
of the committee, I appreciate the opportunity to appear before 
you today to testify on the tremendous accomplishments of our 
soldiers, both active and reserve components, and the great 
progress they are making in winning the peace in Iraq. I know 
that many of you have just recently returned from Iraq, and on 
behalf of the soldiers who are serving our country, let me 
begin by expressing gratitude for the exceptional support you 
provided to them and their families as well. I am happy to join 
you here this morning to talk about the marvelous work our 
soldiers are doing and the great progress that is being made 
every day in Iraq. I visited Iraq in June and again in late 
September, and I am pleased to share with you what I learned.
    The insurgency being waged in Iraq includes foreign 
fighters and terrorist groups, along with former Ba'athists, 
making this the central battlefront in the war on terrorism. 
After our lightning ground attack into Baghdad, an overwhelming 
military victory by coalition forces, the mission in Iraq now 
remains clear: to win the peace. Our soldiers understand this 
mission, and their commitment to getting the job done is having 
an extraordinarily positive effect on the people of Iraq. 
Soldiers are working with the Iraqi people, our coalition 
partners and the international community to achieve a better 
Iraq for the Iraqis, the region and the world.
    During my visits to Iraq, I have witnessed the progress 
being made, and I can tell you that things are getting better, 
and will continue to get better both for the people of Iraq and 
for our men and women serving there. Here are a few of the 
great things that are happening: local government councils 
exist in over 90 percent of the country and are taking 
increasing responsibility for civic administration and 
services; our Army divisions are training Iraqi police, 
facility protection forces, and civil defense corps to assume 
responsibility for local security and law enforcement; our 
units are helping getting Iraqi schools running again--in the 
Baghdad region alone, we will have 820 schools refurbished by 
the end of October. We are continuing to make things safer for 
the people of Iraq and our own troops by removing ammunition 
caches from around the country. The nation's infrastructure was 
badly neglected under the Ba'ath region, and we are helping to 
restore and modernize it. For example, we are hiring Iraqis to 
help restore the oil industry and power generation, and to 
repair roads. These are but a few of the thousands of things 
our Army is busy doing for the people of Iraq, and for our own 
troops.
    Last month soldiers began taking advantage of the R&R leave 
program, which allows them to spend 2 weeks away from the 
theater during their 12-month tour. Since my last visit to Iraq 
in June, we have opened 31 new dining facilities for our 
troops, as well as Internet cafes, chapels, and exchanges. Most 
soldiers are living in hard structures or climate-controlled 
billets so troops returning from patrols can adequately rest 
and refit.
    In Iraq, the mission for our soldiers continues. They must 
attack and eliminate remaining anti-coalition forces and assist 
interim governments to deliver basic services to their people. 
Our soldiers must simultaneously conduct combat operations and 
provide humanitarian assistance, often shifting between these 
two in the same day. The administration is aware of our 
concerns and requirements. President Bush has asked Congress 
for the resources to help fight the war on terror, and they are 
addressed in the fiscal year 2004 supplemental. We urge 
Congress to assist us by quickly passing this legislation.
    Despite remarkable successes, our fight is not over. Our 
enemies are committed and believe we lack the resolve to win 
the peace in Iraq. I can assure you this is not true. Our 
commanders and troops are determined and optimistic, and feel 
that we are gaining momentum in the fight. In years to come, 
when historians write the story of this critical period, they 
will note that in Iraq and around the globe, the unwavering 
commitment, courage and compassion of the American soldier led 
the way in the fight against terror. By carrying the fight to 
the enemy, the Army is destroying terrorism today in its home 
nests and spawning grounds, providing protection to the 
American people and striking fear in the hearts of our enemies.
    In closing, I would like to take this opportunity to thank 
this committee for the opportunity to appear today and for your 
continued support for the men and women in uniform deployed in 
Iraq, Afghanistan and around the world fighting terrorism. I 
would like to take this opportunity also to thank all our 
soldiers for their service, and their families as well, for the 
sacrifices they are all making for our Nation. Mr. Chairman, I 
look forward to answering your questions.
    [The prepared statement of Secretary Brownlee follows:]

    [GRAPHIC] [TIFF OMITTED] T1303.008
    
    [GRAPHIC] [TIFF OMITTED] T1303.009
    
    [GRAPHIC] [TIFF OMITTED] T1303.010
    
    [GRAPHIC] [TIFF OMITTED] T1303.011
    
    [GRAPHIC] [TIFF OMITTED] T1303.012
    
    [GRAPHIC] [TIFF OMITTED] T1303.013
    
    Chairman Tom Davis. Thank you very much, Secretary 
Brownlee.
    Secretary Dibble, thank you for being with us.
    Mr. Dibble. Thank you, Mr. Chairman. I am grateful for the 
opportunity to appear before the committee this morning, and I 
will keep my remarks brief.
    Several senior administration officials, including 
Ambassador Bremer of the Coalition Provisional Authority in 
Baghdad and Deputy Secretary of State Armitage have testified 
in recent days on key issues concerning U.S. policy on Iraq. 
Their statements stand alone as the administration's position 
on Iraq but I am here to attempt to address any questions you 
may have.
    It is in the interest of all Americans and, indeed, the 
international community, to see peaceful and prosperous 
countries across this important region. For far too long Iraq 
exported destabilizing waves of violence and terrorism across 
its borders and around the world. Iraq now has the potential to 
turn the situation around and become a source of stability and 
prosperity in the region, around the world and for Americans 
here at home.
    Meeting our military objectives in Iraq was only the 
beginning of reaching that vision, however, not the end. While 
it is in our interest to stabilize the situation, we also owe 
it to our men and women in uniform, to their courage and 
sacrifice, to accomplish the entire mission. In addition, we 
need to support our own people who also serve on the front 
lines of this fight, providing assistance in what are often 
dangerous circumstances and insecure settings.
    I would like to continue by paying tribute to my friends 
and colleagues throughout Iraq on both military and civilian 
sides. They are working extraordinarily hard, at heavy personal 
risk, to restore stability and security, reestablish normal 
life for Iraqis, and help lay the basis for Iraqis to succeed 
in the election of a representative government, and they 
deserve all our thanks.
    Mr. Chairman, succeeding in this project in all its aspects 
is of vital interest to the United States, and we cannot fail. 
The task has three main dimensions: security, restoring normal 
life for Iraqis and establishing a political process. Each 
dimension is related to the others and is a necessary condition 
for success. Security is a fundamental requirement for normal 
life and for a legitimate political process. Restoration of 
normal life meaning access to employment, to health care, to 
education, and clean water, among so many other things, is 
desirable in itself and underpins security. Finally, a 
political process provides confidence to the Iraqi people that 
they will soon take on the task of governing themselves. That 
confidence, in turn, contributes to security.
    These are difficult times, as the situation in Iraq 
continues to shift and take shape. With the clarity of 
hindsight, however, I believe we will know this Nation had the 
courage to take tough decisions to safeguard our future peace 
and prosperity at the time when it mattered most. In so doing, 
the U.S. Government has the opportunity to help not only our 
own people, but also the people of Iraq, the region and around 
the world. Success in Iraq, however, is also of vital interest 
to the international community. As such, we have sought and 
achieved international participation in the coalition. We look 
to the United Nations to contribute a substantial expertise and 
experience in this connection, and we are aggressively seeking 
substantial financial support from the international community 
for the reconstruction effort.
    This outlines the main elements of our policy on Iraq, and 
I would be happy to respond to the committee's questions. Thank 
you.
    [The prepared statement of Mr. Dibble follows:]

    [GRAPHIC] [TIFF OMITTED] T1303.014
    
    [GRAPHIC] [TIFF OMITTED] T1303.015
    
    Chairman Tom Davis. Thank you very much.
    Tom Korologos, thanks for being with us.
    Mr. Korologos. Mr. Chairman, members of the committee, my 
name is Tom Korologos. I am a senior counselor to Ambassador L. 
Paul Bremer, the Coalition Provisional Authority Special Envoy 
in Iraq. My responsibilities include working with three other 
senior counselors, the various coalition ministers, and staff, 
and also handling visiting congressional delegations as they 
come through Iraq; and your group was among them, and I see 
other members here on the committee who were there.
    When I first got to Baghdad last May, it was a city 
burning. We were given earplugs to shut out gunfire so we could 
sleep. Today we are living in the midst of a rebirth for this 
maligned country that has enjoyed more religious and political 
freedom in the past 4 months than in the past 40 years. I have 
traveled the country extensively with Ambassador Bremer and 
with the Members of Congress, and I have seen firsthand the 
successes that have followed the ceasing of these hostilities.
    As many of you who visited us this summer know full well, 
Baghdad is not a war-ravaged city. Baghdad is a hustling and 
bustling city where you can buy everything on the streets from 
air conditioners to refrigerators to satellite dishes to shoes. 
To be sure, all of us dread hearing about the shootings or 
attacks on American soldiers in Iraq, and as Ambassador Bremer 
said 2 weeks ago, our day begins 8 hours ahead of yours here, 
and we learn about those attacks before you awaken. We deplore 
those losses and wish they weren't so.
    Mr. Chairman, as you have heard us say time and again, and 
as my colleagues on the panel have stated, we have three goals 
in Iraq. Our plan from the start has been to restore security, 
restore the economy and restore the government. We are making 
progress on all three fronts, and those of you from the 
committee who joined us know this firsthand. What we have in 
Iraq is a rich country which, as the chairman said, is 
temporarily poor. It has oil; it has water; it has an 
energetic, smart population. It is not unlike California, as a 
matter of fact, including problems with the economy and the 
government. Let me list a few facts. Schools reopened last 
week, as Secretary Brownlee said, and we are luring children 
back, where attendance had plummeted 50 percent of the eligible 
attendees. We have prepared and distributing 5 million new math 
and science text books minus Saddam's ideology. When I first 
arrived there, we had 9 mile-long gasoline lines. Today we have 
traffic jams. We love traffic jams; they mean that gas is 
flowing and people are out working. General Strock will give 
you the details of the oil business. The central bank is now 
open, providing loans and conducting commerce. In 2 weeks we 
are distributing a new currency to the Iraqis. Foreign 
investment is poised to come to Iraq. One member of the 
Governing Council told me 2 months ago, when Ambassador Bremer 
first approached the issue, that if anybody had said the word 
foreign investment under the old regime, he would have had his 
throat cut. Independent voices are being heard for the first 
time in 40 years. We have almost 200 newspapers up and running, 
27 TV stations and 26 radio stations functioning.
    The coalition, as Secretary Brownlee and General Strock, in 
a minute, will tell you, has completed more than 8,000 projects 
around the country, refurbishing everything from soccer fields 
to health clinics, to roads and bridges throughout the country. 
Saddam budgeted $13 million for health care in 2002. We have 
allocated $210 million, a 3,200 percent increase. On April 9th 
only 30 percent of the hospitals were running; today, all 240 
around the country are open; 4 million Iraqi children have 
received 22 million doses of vaccine. Prewar, the country was 
averaging 4,000 megawatts of power. The demand was 6,000, we 
are now around 3,900, closing in on that issue. Oil is pumping: 
we are about 1.7 million barrels a day, and hope to get back to 
prewar levels, around 3 million.
    The Governing Council is up and running. They have just 
named 25 various ministers to run the government, and those 
ministers probably constitute the most educated cabinet group 
in the world, since most of them have Ph.Ds. And as Secretary 
Brownlee also said, there are more than 700 democratically 
selected district council members. They include Sunnis, 
Shiites, Christians, Arabs, and Kurds, with more than 75 women 
among them; 90 percent of the Iraqi people are now under local 
representative governing councils; 90 percent of the courts are 
up and running, and last week I saw they even created the Iraqi 
Bar Association.
    On and on the list runs, Mr. Chairman, and those of you who 
have been there can see those lists as we present them to you. 
The lament for those of us enduring 50 and 60 straight days of 
100 degree heat--we had a 137 degree day once this summer--of 
wearing flak jackets when we leave the compound, we run around 
in armored cars when we go downtown, and in talking with about 
95 to 98 percent of the Iraqis who support us, our lament comes 
from the fact there are good things happening that very few 
Americans know anything about. The reporting of those 
accomplishments, unfortunately, takes a back seat to the police 
blotter-type journalism that fills the front pages of the 
American papers.
    And as the chairman said, those of you who went to the Al-
Hillah grave site on our trip, I repeat what I said then: I 
find the silence on the mass graves deafening. A total of 1.3 
million Iraqis are missing from wars and mass murders. Human 
rights groups estimate that 300,000 of those are in mass 
graves. One mass grave alone holds the bodies of 1,200 
children. There are some 35 or 40 mass grave sites all around 
Iraq filled with Iraqis who opposed Saddam. If there is any 
doubt about our going in there in the first place, come see me, 
I will take you down to Al-Hillah for a poignant awakening. 
Yes, there are bumps in the road, and, yes, Ambassador Bremer 
has made audibles throughout the process. We are going to need 
many, many dollars to bring this country back to some semblance 
of freedom. And once that happens, the entire Middle East 
hopefully will stand up and take notice and some sanity will 
come to that part of the world.
    Let me close with a couple of points. Everybody wants to 
know when our troops are coming home. The troops will start 
coming home when Ambassador Bremer comes home and the CPA 
succeeds. And when will that be? Let me cite a Rand Corporation 
study, which took a look at post-war rebuilding efforts in 
Germany, Japan, Kosovo, and Bosnia. The study said of Iraq: 
``Staying there does not assume success. Leaving early 
guarantees failure.'' Thank you very much.
    [The prepared statement of Mr. Korologos follows:]

    [GRAPHIC] [TIFF OMITTED] T1303.016
    
    [GRAPHIC] [TIFF OMITTED] T1303.017
    
    [GRAPHIC] [TIFF OMITTED] T1303.018
    
    [GRAPHIC] [TIFF OMITTED] T1303.019
    
    [GRAPHIC] [TIFF OMITTED] T1303.020
    
    Chairman Tom Davis. Thank you. I was feeling pretty 
confident until you told me the lawyers were getting organized 
over there.
    General Strock, thanks for being with us.
    General Strock. Thank you, Mr. Chairman. I am Major General 
Carl Strock. I am the Director of Civil Works for the U.S. Army 
Corps of Engineers. As a soldier and a citizen I would like to 
start, as the other members did, by thanking this committee and 
the Congress for your continued and unwavering support of our 
military as we pursue the global war on terrorism.
    Sir, I have recently returned from Iraq after 6 months, 
where I served with the Office of Reconstruction and 
Humanitarian Assistance and then with the Coalition Provisional 
Authority. I held several positions, culminating as deputy 
director of operations and infrastructure for Ambassador 
Bremer. I was also the Senior Corp of Engineers Officer in Iraq 
and had responsibility to ensure that my agency was adequately 
and appropriately represented in supporting the effort. We do 
that in many ways. We have responsibility for the restoration 
of Iraqi oil infrastructure; we are supporting the U.S. Agency 
for International Development in the administration of their 
large construction contact; we are providing forward engineer 
support teams to each of the regional coordinators to assess, 
plan, prioritize, and execute projects in their areas; we 
provided ministry advisory teams to eight of the ministries of 
the Iraqi government; we are supporting the creation of a new 
Iraqi army with facilities; we have recently sent a task force 
in to assist in the restoration of electrical power. In all, 39 
of our 40 districts are represented with about 400 people, 
mostly civilians, all volunteers, who are out there on the 
front line on a daily basis risking their lives in support of 
the Iraqi people and our country.
    Sir, we are working in partnership with many, many agencies 
and international organizations: the USAID, other departments 
from our Government--State, Transportation, Health and Human 
Services, Agriculture, Commerce. We are working with 
international organizations: UNICEF, UNESCO, UNDP. Non-
governmental organizations: the International Committee for Red 
Cross-Red Crescent, CARE and others. We are also working with 
the coalition military forces who have been a tremendous 
augmentation to the CPA capability to reconstruct 
infrastructure, as has been mentioned by the committee.
    Sir, most importantly, though, I think it is important to 
note that it is the Iraqi people themselves who are really 
doing the heavy lifting in this. The ministries and the private 
sector there have proven to be competent, committed and 
courageous in their support of this effort. We simply could not 
do what we have done if the Iraqis had not been involved from 
the very beginning.
    We came into a situation which is desperate. The 
infrastructure of this country has suffered a 30-year insult. 
There are many reasons for that. First of all, and 
fundamentally, is a neglect of the system; in some cases benign 
neglect, in some cases very deliberate neglect on the part of 
Saddam's regime. Services under Saddam Hussein were used as a 
reward or punishment. You can see a dramatic difference in the 
quality of life in Baghdad, where citizens typically enjoy 22 
to 24 hours of power a day, and Al-Qud, where they only get 2 
hours of power a day. So the infrastructure was built around 
those who supported him and were denied to those who did not.
    We also suffered war damage but because we made very 
careful efforts to limit damage through what we call effects-
based targeting--where you decide what effect you want to 
create and do it with minimum impact to the infrastructure--we 
were able to keep actual war damage to a minimum, a very 
insignificant aspect of the problems we are facing now.
    We suffered tremendous looting after the fall of the 
regime. Much of this was individual looting by people out for 
personal gain, and much of it then turned to a criminal element 
of deliberate and structured dismantling of the infrastructure. 
There has also been--and I think the largest factor has been--
deliberate sabotage by the former regime loyalists who are 
doing everything they can to thwart our efforts and make it 
difficult for us to restore some level of normalcy to this 
country.
    The result of all these things has been almost a total 
devastation of this country; not only the physical 
infrastructure, but the human infrastructure. Those people who 
are committed to maintaining the infrastructure have suffered 
dramatically in how they were able to do their jobs, and they 
continue to suffer intimidation and coercion as they support 
the effort.
    The other panel members have already discussed some of the 
results, so I won't go into the details of those. One of the 
most important, though, that I would mention is the electrical 
power restoration, which now exceeds 4,500 megawatts, which is 
more than enough to provide for the daily needs of the Iraqi 
people. Oil production has now reached the 2 million barrel per 
day level, and we are simply now in the process now of 
developing the export facilities.
    There is much work to be done, a good foundation has been 
laid, and, I might add, largely with Iraqi resources 
supplemented by our taxpayer' dollars, but resistance 
continues. Those within Iraq and outside of Iraq that have an 
interest in this outcome are working very hard to counter our 
efforts. We are fighting for the will of the Iraqi people and, 
to a degree, we are fighting for the will of the American 
people. Our soldiers won this war because they had the will to 
fight for what they believe in, and I think the Iraqi soldiers 
lost because they did not have the will to fight for a corrupt 
regime. I firmly believe that they melted away because they 
knew that was in the best interest of their country. We must 
not disappoint those Iraqi soldiers, and we must not neglect 
the sacrifices of our soldiers. We have to continue this 
effort. There is no option but to see it through.
    As you mentioned, sir, Iraq is an impoverished country with 
tremendous potential; vast natural wealth and tremendous human 
capital. All they need from us right now is continued support 
and substantial assistance in accelerating their return to 
normalcy. I am intensely proud that I had the opportunity to 
serve this Nation and the people of Iraq, and I thank you for 
the opportunity to appear before this committee today.
    Chairman Tom Davis. Thank you, General.
    Bernie Kerik, thanks for being with us, chief.
    Mr. Kerik. Thank you, Mr. Chairman. I too would like to 
echo the General's comments in thanking the committee here and 
other Members of Congress for coming to Iraq and seeing for 
yourself, seeing firsthand what has happened there, what it was 
like before, what it is like today, and the great successes we 
have had in the CPA.
    I am Bernard Kerik. For 4 months I oversaw the Ministry of 
Interior as the senior policy advisor to Ambassador Bremer for 
the Interior. The Interior houses the police, customs, borders, 
immigration, emergency management and fire services for the 
entire country.
    The Iraqi police service, as they stand today, are unable 
to independently maintain law and order and need the assistance 
and guidance of the coalition forces to accomplish this task. 
They have suffered years of neglect, coupled with a repressive 
command structure that prohibited training, proactive 
initiative, and stifled attempts toward modernization of the 
police. Unless redesigned and redeveloped, the Iraqi police 
will not constitute a suitable, viable, supportable, or 
sustainable police service for a free Iraq.
    Although the police force in Iraq was only a part of the 
security apparatus used by Saddam's repressive regime, they are 
the only institution which remains somewhat intact following 
the conflict. In the opinion of many citizens, the police are 
inexplicably linked with a cruel and repressive regime that has 
been substantially tainted by their association. Generally seen 
as a part of the regime's enforcers, the populace normally 
describes the police as corrupt, unprofessional, and 
untrustworthy. The police force was a quasi-military 
institution heavily steeped in military tactics, doctrine, 
discipline, and philosophy, concurrently staffed with active 
military personnel who were tightly controlled by Baghdad and 
Saddam. Because of this restrictive control, the police 
services languished for the last 35 years and now displays the 
results of poor standards, inadequate expectations and 
performance, absence of understanding and appreciation for 
human rights, poor management, and insufficient and inadequate 
training.
    Following the conflict, most of the police infrastructure 
was badly damaged, stolen or destroyed during the cathartic 
looting which succeeded the end of hostilities. As the public 
order situation has improved, many of the police who fled 
coalition forces have returned to work, not only within Baghdad 
but across the country, now nearly 40,000 in strength. Their 
ability to operate effectively in general was hampered by their 
inadequate knowledge of basic police skills such as patrol 
techniques, interviewing and crime scene investigation and was 
hampered by a lack of equipment.
    As a result of the training, oversight and assistance by 
the coalition, and their willingness to cooperate with the 
coalition, they have demonstrated enormous progress in securing 
and stabilizing Iraq in the last several months. Establishing a 
sufficient proactive deterrent police presence remains one of 
the principal priorities of the Coalition Provisional Authority 
and the Iraq police services are presently engaged in extensive 
administrative and operational reforms. The thorough vetting of 
existing personnel was and is required, along with extensive 
retraining of those who survived this process. The recruitment 
and screening of new Iraqi police has begun, and the training 
of new recruits untainted by the vestiges of the former regime 
must be accomplished as soon as possible. This infusion of new 
ideas, ideals and expectations will invigorate the police 
service, while forcing existing personnel to challenge 
paradigms of behavior that have held them hostage throughout 
their careers. Complimenting these ideas is the installation of 
a proactive and aggressive office of professional standards 
that will hold officers accountable to a standardized set of 
intentionally accepted policies, rules and regulations that 
will guide the police service long after international advising 
and police assistance have ended.
    The reform of the police is a long-term program that will 
require considerable international assistance through financial 
in-kind contributions and qualified police personnel to train, 
monitor and advise their Iraqi counterparts. As there are too 
many accomplishments to mention in the Interior in this 
statement, I welcome the opportunity to go over them with you 
and other members of the committee at your request. And, again, 
thank you for the opportunity to be here.
    [The prepared statement of Mr. Kerik follows:]

    [GRAPHIC] [TIFF OMITTED] T1303.021
    
    [GRAPHIC] [TIFF OMITTED] T1303.022
    
    [GRAPHIC] [TIFF OMITTED] T1303.023
    
    [GRAPHIC] [TIFF OMITTED] T1303.024
    
    [GRAPHIC] [TIFF OMITTED] T1303.025
    
    [GRAPHIC] [TIFF OMITTED] T1303.070
    
    [GRAPHIC] [TIFF OMITTED] T1303.071
    
    [GRAPHIC] [TIFF OMITTED] T1303.072
    
    [GRAPHIC] [TIFF OMITTED] T1303.073
    
    [GRAPHIC] [TIFF OMITTED] T1303.074
    
    [GRAPHIC] [TIFF OMITTED] T1303.075
    
    [GRAPHIC] [TIFF OMITTED] T1303.076
    
    [GRAPHIC] [TIFF OMITTED] T1303.077
    
    [GRAPHIC] [TIFF OMITTED] T1303.078
    
    [GRAPHIC] [TIFF OMITTED] T1303.079
    
    [GRAPHIC] [TIFF OMITTED] T1303.080
    
    [GRAPHIC] [TIFF OMITTED] T1303.081
    
    [GRAPHIC] [TIFF OMITTED] T1303.082
    
    [GRAPHIC] [TIFF OMITTED] T1303.083
    
    [GRAPHIC] [TIFF OMITTED] T1303.084
    
    [GRAPHIC] [TIFF OMITTED] T1303.085
    
    [GRAPHIC] [TIFF OMITTED] T1303.086
    
    [GRAPHIC] [TIFF OMITTED] T1303.087
    
    [GRAPHIC] [TIFF OMITTED] T1303.088
    
    [GRAPHIC] [TIFF OMITTED] T1303.089
    
    [GRAPHIC] [TIFF OMITTED] T1303.090
    
    [GRAPHIC] [TIFF OMITTED] T1303.091
    
    [GRAPHIC] [TIFF OMITTED] T1303.092
    
    [GRAPHIC] [TIFF OMITTED] T1303.093
    
    [GRAPHIC] [TIFF OMITTED] T1303.094
    
    [GRAPHIC] [TIFF OMITTED] T1303.095
    
    [GRAPHIC] [TIFF OMITTED] T1303.096
    
    [GRAPHIC] [TIFF OMITTED] T1303.097
    
    [GRAPHIC] [TIFF OMITTED] T1303.098
    
    [GRAPHIC] [TIFF OMITTED] T1303.099
    
    [GRAPHIC] [TIFF OMITTED] T1303.100
    
    [GRAPHIC] [TIFF OMITTED] T1303.101
    
    [GRAPHIC] [TIFF OMITTED] T1303.102
    
    [GRAPHIC] [TIFF OMITTED] T1303.103
    
    [GRAPHIC] [TIFF OMITTED] T1303.104
    
    [GRAPHIC] [TIFF OMITTED] T1303.105
    
    [GRAPHIC] [TIFF OMITTED] T1303.106
    
    [GRAPHIC] [TIFF OMITTED] T1303.107
    
    [GRAPHIC] [TIFF OMITTED] T1303.108
    
    [GRAPHIC] [TIFF OMITTED] T1303.109
    
    [GRAPHIC] [TIFF OMITTED] T1303.110
    
    [GRAPHIC] [TIFF OMITTED] T1303.111
    
    [GRAPHIC] [TIFF OMITTED] T1303.112
    
    [GRAPHIC] [TIFF OMITTED] T1303.113
    
    [GRAPHIC] [TIFF OMITTED] T1303.114
    
    [GRAPHIC] [TIFF OMITTED] T1303.115
    
    [GRAPHIC] [TIFF OMITTED] T1303.116
    
    [GRAPHIC] [TIFF OMITTED] T1303.117
    
    [GRAPHIC] [TIFF OMITTED] T1303.118
    
    [GRAPHIC] [TIFF OMITTED] T1303.119
    
    Chairman Tom Davis. Thank you very much. And I have made an 
opening statement.
    Tom, let me just ask you one question. I get a lot of 
questions from my constituents when I go out; they say, well, 
even if everything goes well in Iraq, even if we rebuild this 
country, it is taking tremendous resources from America, 
minimum of $87 billion, probably well in excess of that, 
American lives and American dollars to rebuild Iraq. 
Ultimately, is this a good use of our resources, or could they 
have been better used to rebuild our own infrastructure and our 
own cities, and help our own people?
    Mr. Korologos. Mr. Chairman, the $87 billion includes $20.3 
billion which is for the coalition; the other piece of it is 
for the military side. The short answer is yes, it is in the 
national interest of the United States to go in there and 
provide stability, create a country in the heart of the Middle 
East, which has been in turmoil for 2,000 years, a democratic 
state where even today you have the Iranians all nervous over 
what is going on in Iraq. My view is that it will stabilize 
that whole part of the world.
    In addition, the example that we can use historically is 
the Marshall Plan. Ambassador Bremer keeps mentioning that in 
his testimony as an example of American interest and American 
support for a war-torn Europe that has brought us today the 
Europe we know. Right after the war, World War II, it was a 
shambles, and American generosity went in and created the 
stability that we have had in Europe ever since. World War I 
ended, and it was the war to end all wars, but it wasn't long 
before we had the creation of a Hitler and we had the creation 
of a Mussolini, which created even more problems for the world 
in World War II. So, yes, it is worth it. And to wipe out a 
regime like Saddam Hussein shows other regimes around that, 
``Holy cow, these Americans mean business, we better perhaps 
shape up.''
    Chairman Tom Davis. OK. Thank you very much.
    Let me recognize Mr. Kolbe, one of the key appropriators in 
this area, and somebody who has taken a leadership role.
    Mr. Kolbe. Thank you, Mr. Chairman, and thank you very much 
for holding this hearing and for the opportunity to be here. I 
really applaud you for doing this. It is, as we have heard from 
the witnesses already in their opening statements, a very 
important issue.
    Mr. Chairman, as you suggested, because I do chair the 
Foreign Operations Subcommittee, I am keenly involved, deeply 
involved, in the reconstruction of Iraq. In fact, I was first 
there in Kuwait in April, just shortly after the fall of 
Baghdad, with our USAID Disaster Action Response Team [DART], 
and our Mission Director, Lou Luck, as they prepared to deploy 
to Iraq. At that time I had the opportunity to see my good 
friend, Chris Shays, a member of this committee, who was there 
at that time and made the first entry into Iraq.
    Initially, last winter, going back even before that, part 
of the U.S. Interagency Team in Washington, USAID was tasked 
with getting contractors ready to hit the ground running in 
Iraq for various sectors such as reconstruction and governance. 
USAID used what they called a ``limited competition system,'' 
in which the Agency personnel selected particular vendors and 
solicited bids. USAID then selected the winners from this 
limited competition and the Bechtel contract, of course, for 
reconstruction of the infrastructure is probably the best known 
of these awards that were made.
    Since then we have been arguing to the administration and 
USAID that they need to begin efforts now so that the next set 
of contracts is awarded through full and open competition; and 
I am talking about the $20.3 billion that Tom Korologos just 
referred to as the part that is in the supplemental for the 
next round of reconstruction. That is on a track, we are moving 
rapidly forward with that, but we have no time to lose if we 
are going to be prepared to make sure those are awarded on a 
competitive basis.
    Frankly, there has been some reluctance downtown to do 
this, in part, I must say, Mr. Chairman, because the roles and 
missions of the U.S. agencies and the Coalition Provisional 
Authority have never really been sorted out completely. As 
recently as the hearings of our subcommittee 2 weeks ago, it 
still was unclear; the administration still hadn't decided who 
was going to do what in the Iraqi effort. The regular fiscal 
year 2004 bill that passed the Foreign Operations subcommittee 
and then the full committee and the House, included a provision 
that does require full and open competition, and I am happy to 
say, Mr. Chairman, we have been working with you and your staff 
very closely to develop language for the Iraq supplemental bill 
that we will mark up tomorrow, and I think that we have 
agreement on that language.
    I really just want to conclude with this comment, and I 
can't overstate the importance of this issue. If we are going 
to have credibility with the American people, they need to know 
that American companies that either they represent or have done 
their work through the sweat off the brow of American workers 
are going to have a fair shot at securing contracts in the 
rebuilding of Iraq. That is what America is about, open 
competition, about giving everybody an opportunity; it is about 
basic American values and doing the right thing. The 
perception, the very perception, Mr. Chairman, that we might 
use something other than open competition would really 
undercut, I think, the support of the mission of the CPA.
    There are some good signs; we have heard some of them here 
today, there is no doubt about it. And I think USAID has gotten 
the message. They have recently published a request for 
proposals for $1.5 billion in additional construction projects. 
That is in preparation, and I am glad to see that, for the fact 
that this $20.3 billion will be coming. Clearly there are 
emergency situations that may require sole-source or other than 
fully competitive methods, but I think it is fair to say that 
full and open competition ought to be the rule; it is fair and 
transparent, and I think it usually results in savings to the 
taxpayer as well.
    And so, Mr. Chairman, I would thank you again for this 
chance to be here. And if there is an opportunity to ask one 
question of Mr. Korologos or any of the members of the panel 
there, it is, do you feel we are ready to win this next round, 
to have true open competition for these contracts?
    Mr. Korologos. Mr. Chairman, Ambassador Bremer testified 
before the committee and said, yes, indeed, it will be 
transparency, it will be open competition, and the process, I 
think, has already begun toward that end, yes, sir.
    Mr. Kolbe. Thank you. I appreciate that answer. I certainly 
hope that will be the case. I will be over there in about 3 
weeks, Tom, to visit with you, and we will have a chance to 
talk some more about this.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Mr. Kolbe, thank you very much.
    Mr. Van Hollen.
    Mr. Van Hollen. Mr. Pomeroy is here. He had some business 
on the floor, so I would ask unanimous consent.
    Ms. Norton. Mr. Chairman, are you calling people as to when 
they came?
    Chairman Tom Davis. I am asking minority staff how they 
would like me to recognize them; I am working with them. So I 
am letting your leadership call the shots.
    Ms. Norton. Well, if the gentleman has to go to the floor, 
I would be pleased to let him go now. I was the first member 
here.
    Chairman Tom Davis. I understand.
    The gentleman from North Dakota, Mr. Pomeroy. Thanks for 
being here.
    Mr. Pomeroy. I thank both of my colleagues. There is a 
pension issue on the calendar on the floor now, the Ways and 
Means jurisdiction, and I am asked to speak on it, so I do 
apologize for going out of order, and I will be brief.
    I went to Iraq in August with the House Intelligence 
Committee CODEL, led by Pete Hoekstra. I especially appreciated 
the work of Tommy K., as we call him, because I have trouble 
with that last name, Korologos, in the extraordinary time and 
commitment you made to making certain we saw everything that 
could be seen. Also very much appreciated the briefing we had 
from Commissioner Kerik right in the middle of a very busy time 
for you there.
    I think it is important for Members coming back to draw a 
very clean line of what we saw and what we, therefore, could 
learn from firsthand exposure, and what we didn't see, and not 
assume by seeing something that we have an expertise in other 
areas. In my case, what we saw was extraordinary performance by 
the military, absolutely extraordinary. Our troops made me so 
very proud about the resolute way they were carrying out their 
functions under excruciatingly difficult conditions. It was 133 
degrees there one of the days during our trip, and yet there 
they were, full field dress, Kevlar vests, helmets, getting the 
job done and not complaining a whit. The members of the CODEL 
had plenty to say about the conditions, but our military 
escorts performed absolutely as one might expect, the highest 
conditions of the military. That was reflective, I believe, of 
what we saw in true performance right across the board.
    We were also very impressed by military leadership. The 
division commanders impressed us a great deal. And, in fact, 
some of the ad-hoc successes that I believe we have seen in the 
country have been achieved by a great deal of initiative and 
just flat out creativity of the military division commanders 
making the best of what was available to them without 
particular guidance from any central planned authority. So for 
the military component of it really the highest thoughts 
relative to being impressed.
    Due to security conditions, we didn't visit with one Iraqi, 
not one member of the Provisional Council. That was a 
significant flaw to the trip. It left us with just half the 
picture. In visiting with Ambassador Bremer, Ambassador 
Kennedy, it is still unclear to me the organization running the 
reconstruction efforts or the stabilization efforts, whatever 
you want to call them. Ambassador Bremer was boxed out by 
Ambassador Kennedy, but Ambassador Kennedy was a direct report 
not to Ambassador Bremer, but to the Secretary of Defense. It 
appeared that the Office of Secretary Defense had a very major 
imprint on the reconstruction efforts, but all of that was 
shaken up recently, and today's Washington Post reports that 
Secretary Rumsfeld did not learn about the new commission being 
established in the White House under Condoleeza Rice, the 
President's Security Advisor, until he received a memo from 
Condoleeza Rice.
    This kind of unclarity, lack of certainty about the 
structure that I got on the ground in Iraq has only been 
amplified by what I have been reading in the paper upon my 
return. It just seems to be a very chaotic organizational 
structure, and, unfortunately, the resident expertise, in terms 
of actual program implementation, residing in the Secretary of 
State or the State Department, residing in USAID, do not appear 
to have prominent and well defined roles in this part of the 
action, and I think that has to happen.
    Finally, we really didn't learn about a well-developed 
plan. Even going over there, I didn't come back with the sense 
that we have a global plan we are operating on. And the money 
requested fills neatly into specified priorities on a time line 
appropriately sequenced. We learn of ad-hoc successes and now 
we have a significant budget request. It doesn't all fit 
together in some kind of framework that really makes sense.
    Finally, I did come away with significant concern about the 
treatment of National Guard troops. They were called up, in 
North Dakota's instance, with 5 days notice. When we were 
there, General Sanchez said he was anticipating re-deployments 
in October, November. Two weeks after our return we learned 
that the plan is that the National Guard will remain in-country 
until April. That is a deployment away from their families of 
15 to 16 months. I believe that is disastrous for their morale; 
it is very hurtful to their families; and I am not at all sure 
how we are going to keep National Guard recruitment up in light 
of this experience, this very experience our National Guard 
soldiers are having.
    That concludes my impressions. I have a written statement 
for the record. Again, my deepest gratitude to the efforts 
being made on the ground, it is really heroic. Thank you.
    Chairman Tom Davis. Thank you very much.
    Anyone want to respond? Secretary Brownlee.
    Secretary Brownlee. Sir, if I could, when I was there just 
a week or so ago, I specifically went and met with some of the 
troops of the National Guard who, of course, have had their 
mobilizations extended. When we made the decision to keep 
everyone there, boots on the ground for 12 months, there were 
really three factors involved. One was that the combatant 
commanders were very interested in continuity and stability of 
the force, and keeping the team together. The second factor was 
predictability for those troops, both active and reserve 
components. And we also have to look at the resources we have 
remaining, both within the active and reserve, for future 
rotations. So it all became a matter of trying to balance this, 
and all of the troops that I talked to there, from units that 
were expecting that their deployments would be shorter, while 
they all clearly expressed, as most soldiers do, that what they 
would really like to do is go home, they also acknowledged that 
they understood their mission and they were perfectly prepared 
to conduct it. And we understand this creates hardship for the 
reserve components, and I assure you that we continue to look 
at this, and we will do everything we can in that regard.
    Chairman Tom Davis. Thank you.
    Secretary Brownlee. Thank you, sir.
    Chairman Tom Davis. Thank you very much.
    Mr. Sherwood. We are recognizing Members in the order they 
came. We are going to try to get to everybody.
    Mr. Sherwood. Thank you, Mr. Chairman. I appreciate the 
hearing.
    I just came back from Iraq, and a lot of the things that 
have been said I certainly agree with. My initial impressions 
when you fly over were how much water there is, and we don't 
understand that in this country. And another initial impression 
was how little damage our military did to their housing and 
their structures and their infrastructure. You drive down a 
street in Baghdad and it looks a lot like Palm Springs in 
places; they didn't even blow up or cut down the royal palms. 
But there are some things that I think we have to pay attention 
to.
    Secretary Brownlee, I have to followup. The morale over 
there of the regular Army people is sky high, but the 
reservists don't feel they are being treated properly. They are 
there, they are glad to be there, they are glad to do their 
job, but they want to tell you about a million little 
indignities that they feel they suffer under, like having to 
input their time manually every time to get their hazardous 
duty pay. We have a lot of things that we could do in that 
regard. What is your comment on that?
    Secretary Brownlee. Sir, I agree. One of the things that 
has impressed me the most about this, and I am sure you would 
agree, is how the forces have acted as a total Army, the 
reserve components and the active components. When you go out 
there, you can't tell the difference; that is how good they 
both are.
    Mr. Sherwood. Except when you talk to them.
    Secretary Brownlee. And, of course, as I said, most 
soldiers in any war would prefer to go home, but, again, I was 
impressed by their commitment. I have said before that I think 
that what we have here is another greatest generation; the 
sacrifices they are making, both financial and otherwise, are 
extraordinary. And all of them acknowledge to me that while 
they may have difficulties and they, of course, would like to 
go home, they understand their commitment, their mission, and 
they are prepared to do that. And as I have said before, we are 
going to continue to look at each one of these and try to do 
the best we can, but we have to respond to the commander's 
requirements also, and so we are trying to balance that with 
predictability for the families and the resources that we have.
    Mr. Sherwood. Sir, you entirely missed my point.
    Secretary Brownlee. I am sorry.
    Mr. Sherwood. Those folks are willing to do what they have 
to do. They don't like to be there an extra 6 months, but they 
are going to do it. But they feel they suffer a great deal of 
indignity from the regular Army people who don't pay attention, 
who don't treat them right. They are so willing to do what they 
have to do, and I don't want to belabor this point, but I think 
we have some administrative details to work over.
    The other thing that was impressive to me was what was 
going on in the north and how, when a commander has some 
resources and is able to take control of a sector, he can 
really get things done. In Baghdad, though, it was impressive 
to me. We were at the Al-Durah power plant and is there anybody 
here that can tell me what we are going to do with that 
monstrosity? We have this huge power plant which doesn't even 
have a 50-caliber machine gun hole in it, as near as I can 
tell, but where there are four huge turbines. There is one that 
is working relatively well, one that is working about 35 
percent and the other two are shut down. Now, we didn't cause 
this, I understand that, but I think we have a relatively short 
window to keep the Iraqi people coming our way before we are 
seen as occupiers. What are we doing to get that power plant 
going?
    General Strock. Yes, sir. We are in fact working in Al-
Durah right now, sir. We have reactivated the U.N. contracts to 
rebuild the boilers there and we are rewinding the turbines and 
that power plant is going to be brought back in service. But 
you are absolutely right, it is antiquated technology and part 
of the supplemental is to actually create new generation there, 
state-of-the-art generation that is reliable and stable. But 
Al-Durah is very definitely one of the key projects we are 
working on right now, sir.
    Mr. Sherwood. But it was a little surprising to me that 
with all our resources we couldn't get that thing cranked up a 
little better. I mean, that needs some management. That needs 
somebody to go in there and kick ass and take names. It is a 
mess.
    General Strock. Sir, we have that. The U.S. Agency for 
International Development has created a project management team 
headed by a Mr. Dick Dumford, who is a power expert, and they 
are doing marvelous things. In the last month we have increased 
generation in the country by about 1,000 megawatts. Al-Durah is 
not yet online, but it will be very shortly. That power plant 
was down before the war.
    Mr. Sherwood. Yes, I understand.
    General Strock. And we will get it back up. And, sir, as 
far as security goes, I know that is one of our prime security 
objectives and I know that is being well secured by the U.S. 
forces there.
    Mr. Sherwood. I don't want anything I have said to be 
critical of our troops over there they were of the highest 
caliber; you just can't understand the commitment. I am trying 
to talk about the support from the top. Those young men and 
women are the highest caliber people I have ever been around in 
my life.
    Chairman Tom Davis. Thank you very much.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman. I thank you for holding 
this hearing and thank the panel of witnesses for being here.
    I have not had the pleasure of visiting Iraq, but would 
like to know the extent of collateral damage to the Iraqi 
infrastructure by the U.S. military. I mean, was there much 
damage to hospitals, schools, bridges, and roads during the 
war, and are we building or repairing that infrastructure that 
was damaged?
    Mr. Korologos. Congressman, I can respond by saying smart 
bombs work. They knocked down the military targets, they 
knocked out the Ba'athist ministries, they knocked out the 
palaces where Saddam was thought to be. The infrastructure 
troubles occurred for two reasons. First, 30 years of 
mismanagement, coupled with sanctions. Saddam used to use them 
for political purposes; he would shut down electric plants, he 
would shut down mills and textile facilities for political and 
ideological reasons. In addition, after our soldiers got close, 
the looting began in all of those areas. The population decided 
that they were going to take it out on the 30 years of 
repression, and they went in and not only looted, but 
sabotaged. What can you loot at a power plant? They took away 
anything that moved; they took windows out, they took bars off 
the windows, and were using those for their own way of 
retribution.
    So the infrastructure, and those Members that have been to 
Baghdad and to Iraq saw firsthand , was not damaged. It is 
amazing how little damage was done. And most of the damage that 
we are reaping the whirlwind on now, and the power plants, as 
General Strock said, and even in the ministries around, the 
prisons and what have you, was all done by looters.
    Mr. Clay. So you are telling me that most of the damage was 
minimal due to the war.
    Mr. Korologos. Yes, sir.
    General Strock. Could I just add one thing, sir? Our 
military now uses a process called effects-based targeting when 
we go in with these kind of operations, and that is to 
understand the effect you want to create. And sometimes we do 
have to attack civil infrastructure to deny power to military 
facilities, for example. The easy way to do it is to take out 
the power plant; it is big, it is a one-stop shop, and you can 
do it quickly. The tough way to do it is to take out the 
transmission lines, but they are much easier to repair post-
hostilities. And that is what we targeted, transmission systems 
and distribution systems, not the generation systems.
    The only exception I would say was the communications 
systems of the country. In Iraq, the civil communications and 
military communications are one in the same, and while we 
protected those and did not attack those early on, we learned 
late in the war that we really had to go after them to 
accelerate the collapse of the regime. So we did attack the 
communications structure, which we are now rebuilding.
    Mr. Clay. Did you take out many bridges or roads?
    General Strock. Only where it was military necessity, sir, 
and those were typically on-the-spot decisions by commanders in 
combat.
    Mr. Clay. OK. I don't know who can tackle this question, 
but recently Senator Kennedy, citing a Congressional Budget 
Office report, said that only about $2.5 billion of the $4 
billion being spent monthly on the war can be accounted for by 
the administration. He goes on in this AP story to say that, 
``My belief is that this money is being shuffled all around to 
these political leaders in all parts of the world, bribing them 
to send in troops.'' And I don't know if I want to use that 
strong of a term, but can any of you explain to this committee 
and account to this committee for where the other money is 
going? If $2.5 billion is going to the troops, where is the 
other $1.5 billion going? Can anybody, or is it a national 
security consideration?
    Mr. Korologos. I am not a budget officer, Congressman, 
except to say that we have inspectors general, we have GAO over 
there, and OMB even had a representative there. We account for 
every dime that is spent. Having said that to you, there were 
two funds that we were using. First, we had the vested and 
seized assets that Saddam had put in plastic bags and was 
trying to take out of the country as he fled. That was Iraqi 
money, and the vested assets that we have taken from other 
countries that he had in banks, and have used that to restore 
Iraqi infrastructure. And what happens with that money is, 
money that the coalition presents to the commanders in the 
field to go around and repair schools, repair soccer fields, 
repair whatever damage has been done, clean up the environment 
and garbage-strewn areas. This is called a rollover fund, which 
is not appropriated. Mr. Kolbe was there and we showed him some 
of those projects, as other members of the committee saw. That 
money also is accounted for. It does not go through the regular 
appropriation process because it is Iraqi money that we are 
using for Iraqis at the discretion of the commanders in the 
field and the new ministers that have been formed to say, ``we 
need this, we need that;'' and it is a rollover account.
    Chairman Tom Davis. OK.
    Mr. Clay. I thank you for your answers. It seems like a 
pretty fast clock, Mr. Chairman.
    Chairman Tom Davis. Time flies sometimes. I just want to 
make one comment that may help the gentleman. As we drove 
through Baghdad and areas that were heavily bombed, how little 
damage there was. It was a normal city, up and operating. Once 
in a while you would see a pile of debris here or there, and 
those were generally military installations or governmental 
installations that we had bombed with precision. Nobody wages 
conventional war as well as we do. Nobody has ever done it as 
well, that is very clear. The problem is, of course, the 
aftermath; when we are sitting there in an occupying status, it 
becomes a lot more difficult. But conventional war, all of the 
predictions we heard about mass casualties, didn't come true; 
we did an outstanding job there.
    I recognize the gentleman from Kansas, Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman. I also had the 
opportunity to go with Mr. Sherwood, Mr. Shimkus and others to 
Iraq about a week and a half ago, and I was a little bit 
shocked to find out that the country wasn't in chaos like they 
were reporting on the news, that the criminals were not 
controlling the streets and the lights and water were actually 
on. So I was a little bit surprised.
    One thing that I did notice is that we have troops over 
there who are doing an excellent job, and our generals and 
those in charge over there have excellent plans in place, but 
there seems to be a lack of interagency support. Now, I am told 
that there is good cooperation over in Iraq, but we have people 
in our military training border guards. I think the INS 
probably has more experience doing that job. We have people in 
our military who are training police officers. We probably have 
FBI agents that have more experience in those areas. We have 
military people teaching them how to become highway patrolmen, 
as far as Iraqis are concerned, and I thought we may have some 
reservists that have highway patrol experience. But, in 
general, we have the military taking on a whole lot of tasks 
besides trying to bring peace and security to the country, and 
it just seems to make sense to me that we should have more 
interagency cooperation, that we should have personnel from 
other agencies that have experience along those lines do the 
training with the Iraqis, rather than put that burden on an 
overloaded work force right now in the military trying to bring 
peace to the place. So if you could sort of let me know what 
you think, whether there is cooperation, if it is increasing. 
Do we have plans to increase it, or are we just going to 
tolerate the status quo?
    Mr. Kerik. No, sir. We have made a number of requests to 
the FBI, to the Department of Homeland Security, and they are 
dispatching people from the United States to assist us in 
training the Iraqis. On the border and customs side, we will be 
getting agents, and we have had agents. In fact, when we put 
together the team that stood up and put together the Baghdad 
airport, we had U.S. Customs agents come in to train the Iraqis 
on the Pisces System and other systems that we would need to 
have in place for us to open up the airports at Baghdad and 
Basra and in the north. Those programs are continuing. We have 
had the military assist us in the area of in-service training, 
in transitional training.
    We brought back, as you may know by now, nearly 40,000 
police officers. There were several more pre-war; many of them, 
most of them probably that did not come back didn't come back 
because they were violators of human rights; they figured they 
would be arrested. Some came back and they were terminated, 
fired or retired. Several were members of the Ba'ath party, the 
senior levels of the Ba'ath parties, and they were removed.
    We have created a 3-week transitional program, and that is 
what the military police are assisting in the training of, and 
that is to make sure that the people that we have brought back 
and reinstated are learning principles of policing in a 
democratic society. You know, simplistic things like police 
patrol and understanding that an interview and an interrogation 
doesn't mean that you hang somebody upside down by your feet 
and beat him until he is unconscious. Those things have to be 
taught to the people that are on the ground right now and that 
is what we are doing with the help of the military.
    But as the program continues, and as the President 
mentioned last Friday, we are now going to be working with the 
Jordanian authorities to train the Iraqis that we are 
recruiting to stand up the rest of the police. We need a number 
of between 65,000 and 75,000 civil police and probably another 
15,000 border and customs officials to secure the civil end of 
the country. Those people that have to be trained, recruited 
and vetted will be trained in Jordan with the assistance of the 
Jordanian police and military; and that program is continuing.
    And just one last point. There is an 8-week training 
program for the police that will be trained in Jordan, but they 
will come back into the country of Iraq and for 6 months they 
will have field training officers assigned to them. Those will 
probably be people out of the United States and some of the 
other 37 countries that are working in Iraq. We now have 
Italians, Poles, Spanish, more than 30 countries that we are 
working with as a part of that program to train them when they 
come back into the country.
    Mr. Tiahrt. One of the things that we did while we were in 
Iraq was tour the Al-Durah power plant, which was mentioned by 
Mr. Sherwood. It is like a 1950's, 1960's old power plant put 
in place by the Germans, and they are trying to get it back up 
and running; I suppose it is a holdover, because there must be 
much more efficient power generating facilities. I know we have 
peak power plants in America, we have municipal power plants 
that are cheaper, less capital, much more efficient, and we 
ought to be looking at that rather than rebuilding this 1950's 
technology; that makes about as much sense as flying these old 
tankers when we could be flying KC-767 tankers, at least for 
the Air Force. So we ought to be thinking about what is the 
best technology available, and not being stuck in the past.
    Thank you, Mr. Chairman. I appreciate the opportunity.
    Chairman Tom Davis. Thank you very much.
    Mrs. Norton. Thanks for being patient.
    Ms. Norton. Thank you, Mr. Chairman.
    I think we all agree, when we say, ``turn the country back 
to the Iraqis,'' we mean first democracy and then turn over 
their own economy to them, and my questions go far less to 
contracts for American companies than contracts for Iraqi 
companies, particularly since there are numerous press reports 
that, now that Iraqi businesspeople are talking to the press 
about how they feel shut out of our contracting process, they 
complain that they could do the work for many times less than 
the work is being done.
    Now, I don't know if this involves the ability of our 
companies or our own Army Corps of Engineers to translate price 
bids as between our companies and their companies. Obviously, 
they will underbid us all the time, given the difference in the 
economies. But how do you deal with these complaints? How do 
you respond to these complaints? They know their country, they 
can do the work for a whole lot less than we are doing it and 
they are not getting the contracts.
    Mr. Kerik. Good morning. I want to talk about the Ministry 
of Interior, for example, for one moment. And I have read some 
of the things in the newspapers and I have heard some of the 
criticism. In the Ministry of Interior in the city of Baghdad, 
we stood up 35 police stations in 4 months. Faster than 
anything you could have done in the United States, and we did 
so with Iraqi contractors.
    Ms. Norton. I would like a response to this question. In 
other words, are you saying that this is all anecdotal? I want 
to know about the ability to translate the price information so 
that the Iraqis understand why, for example, we are paying more 
than they have bid, because, you know, in this country, if you 
bid and you had the lower bid and you don't get the work, then 
you think something is crooked. So I am trying to find out 
whether or not we have the capacity to make them understand our 
bidding process and to translate their bids to meet our system. 
Or what is the reason for these reports that are cropping up 
everywhere with complaints from Iraqi businessmen? I don't 
doubt that you are able to build. I don't doubt that you are 
using Iraqi businesspeople. I am asking a more technical 
question, about how the bidding process works, when you are 
dealing in a foreign country with people with a bidding process 
that is very different from the one we use here.
    General Strock. Well, ma'am, I can't comment. I am not 
aware of any case where bids have been received and it did not 
go to the low bidder, unless it was a best value sort of 
contract. So I don't know any specifics on that. I do know we 
are making great efforts, though, to employ as many Iraqi 
companies as we can.
    One of our problems early on was the fact that most of the 
infrastructure-related companies in Iraq are state-owned 
enterprises, and as parts and extensions of the government, 
they suffered the same amount of destruction and devastation as 
the rest of the economy; and so to even get them to mobilize 
and be prepared to come to work was very, very difficult, and 
that is getting better and better all the time.
    Ms. Norton. Actually, I very much appreciate what you are 
doing in trying to deal in a foreign country, trying to get the 
work done quickly. Let me suggest this. Among the complaints I 
have read, again, these are Iraqis talking to the press, that, 
for example, the bidding period is so short, a couple of days, 
that they can't possibly deal with that kind of turnaround. 
There have been complaints that the information on the 
solicitations are inaccurate and misleading. Somebody doing 
these solicitations doesn't even understand the country and 
understand what needs to be done. There are complaints that 
because the bidding process opens and closes so quickly, 
probably because you are trying to get the work done quickly, 
it looks like a prefix setup, and that you have already chosen.
    Now, let me just say something to you. I am on another 
subcommittee that has jurisdiction over the GSA. In this 
country, the GSA has to do weekly meetings in order to tell 
people how to get on the GSA Schedule and how to bid, and what 
I want to know is, whether you are doing the job that it will 
take to bring Iraqis into the process or if you are just 
throwing out a bid and saying, ``we need a response in 2 
days.'' How do you expect people to be able to bid, especially 
when you look at figures like Bechtel, which has $900 million 
in contracts and only $50 million in subs to Iraqis. Part of 
the reason may be that we haven't done our job in informing, 
teaching, training Iraqis how to use our bid process, so you 
just simply go along with whoever looks like he can do it and 
gets the work done. So I want to know what you are doing to 
bring them into the process so they know how to become a part 
of the process you are using.
    General Strock. Ma'am, Bechtel Corp. did hold a session for 
all Iraqi contractors about 2 months ago to explain the 
opportunities and processes to compete. There are some 
challenges, many of which are associated with just the lack of 
communication in the country, the inability to even know when 
there are opportunities presented. So that is definitely a 
problem we are working on. I know that when the supplemental 
comes through, there is a plan afoot that will have, as part of 
the performance specification, the contractor's plan to employ 
Iraqis and how they are going to go back doing that, educating 
them on the process and then actively soliciting their support. 
So we are very aware that this is a problem and we are working 
on it.
    Ms. Norton. I know my time is up, Mr. Chairman.
    I wish you would make the committee aware of how you 
inform, in writing, of how you inform contractors that they are 
to, in turn, inform Iraqis of how to use this process so that 
we have a greater understanding of what you are doing to bring 
Iraqis into your own bidding and contract process.
    Chairman Tom Davis. That would be helpful to get that 
information to us, and we will circulate it to the Members.
    Secretary Brownlee. Could I respond for just a moment?
    Chairman Tom Davis. Sure.
    Secretary Brownlee. The Army is the executive agent to 
assist.
    Ms. Norton. I can't hear you.
    Chairman Tom Davis. Go ahead.
    Secretary Brownlee. The Army is the executive agent to 
assist Ambassador Bremer's organization with contracting. Could 
I please provide for the record how we are doing that and what 
we intend to do to try to make sure the process is perceived as 
fair and transparent by both United States and Iraqi companies?
    Ms. Norton. That would be very useful, I believe. Thank you 
very much.
    Chairman Tom Davis. That would be helpful. Thank you, Mr. 
Secretary.
    The gentleman from Connecticut.
    Mr. Shays. Thank you, Mr. Chairman. Mr. Chairman, I would 
like to take the opportunity, first, to thank you for holding 
these hearings, thank all of our patriots who are our panel and 
thank them very much, and to recognize Dr. Julian Lewis, who is 
a member of Parliament, if he would stand, from Great Britain. 
We appreciate your great country's help in this effort.
    Chairman Tom Davis. Thank you. Welcome to the committee 
room. I hope he enjoys his stay over here in the colonies.
    Mr. Shays. In my first visit to Iraq, I met a gentleman in 
Unm Qasr, whose name was Mohammad Abdul Hassan. He said, ``you 
don't know us and we don't know you.'' And that spoke volumes 
to us in this rebuilding effort. Winning the war on a scale of 
1 to 10 is an 11; winning the peace, I don't know where it is, 
but it is not an 11 or a 10, maybe not even a 9, and we need it 
to be up much higher.
    I would love to ask you, not because I agree with all of 
his criticisms, but because I think you should respond to them, 
in the next panel we have Dr. Alaa Haidari, and he basically 
expresses gratitude for the United States coming into Iraq--he 
is an Iraqi-American--and he then proceeds to be somewhat 
critical. I am going to state his criticisms up front and then 
have you just respond to them.
    One of them is, he said the current council makeup--the 
governing counci--simply does not reflect Iraqi reality. He 
said, sadly, most of the members of the current council have 
neither the support nor the approval of the people in their 
respective groups; nor does the current council provide any 
representation for many Iraqi provinces, and so on.
    In disbanding the army, he said Iraqi police forces must 
take over as soon as possible. I think you have spoken somewhat 
to that. He said the U.S. administration must accept the fact 
that disbanding the Iraqi army and police force was a huge 
mistake.
    His other point is on ministry employees. He said qualified 
Iraqis are more knowledgeable than anyone else in the affairs 
of their country, and can quickly determine the steps needed to 
rebuild the economy. And he said, except for the top echelons 
of Ba'athist leadership, it is essential that employees of the 
Iraqi ministry be rehired.
    So those were his basic points and I will just end by 
saying, when I met with Colonel Buhani, who was the individual 
who allowed us to go into Iraq from Kuwait, he said ``you 
Americans don't get it. You need to be hiring more Iraqi-
Americans, you need people who speak the language and you need 
people who know the culture, and you need people who know the 
tribes.'' So I would love you to respond to that.
    And just a quick first question to you, Mr. Korologos. Why 
should you basically be answerable to Defense? Why shouldn't 
you be answerable to State? I have never quite figured that one 
out.
    Mr. Korologos. Well, the short answer is, because Congress 
passed a law creating the supplemental the first time in March, 
placing the Coalition Provisional Authority under the 
President, reporting through the Secretary of Defense. You saw, 
when you were there, Mr. Shays, the co-mingling of the 
coalition forces and the coalition Joint Task Force 7, which is 
General Sanchez. We are in the same building, we use the same 
lunch rooms, we use the same facilities. They are an integral 
part of each other's operation. The soldiers and the commanders 
out in the field are rebuilding, through their civil affairs 
operation, a great deal of the country. The Coalition 
Provisional Authority, through creating the general council and 
the ministers who are now operating, is creating a governance 
side. All of us are working on the security piece, which is a 
huge undertaking; and the co-mingling and the putting them 
together works a lot better for reporting purposes. There is a 
big State Department presence, as you saw.
    Mr. Shays. I am sorry, I think you answered the question. 
Could you get on to the other points that were made by our 
panelist, the second panelists, the quotes that I did? Could 
some people respond to those? The issue of the ministries, the 
issue of the representation of the council not being true, can 
people address that, please?
    Mr. Dibble. I can address that, or at least I hope in part.
    Mr. Shays. Thank you.
    Mr. Dibble. With respect to the council not reflecting 
reality, in fact, that is true. The council, we have to 
remember, is an interim body; it was selected, not elected and 
does not perfectly reflect Iraq's population. It was necessary 
to get a body in place as soon as possible. A lot of work went 
into that; I don't want to minimize that. The council does, 
broadly speaking, reflect Iraq's general makeup. It is not 
perfect, and I think the coalition, and Ambassador Bremer in 
particular, are making an enormous effort from now to reach out 
to those parts of the population who believe they may not be 
perfectly represented on the council, because at the end of the 
day what will represent the Iraqis is an elected government, 
not something that has been appointed in any case.
    Mr. Shays. Thank you, that is helpful. How about the issue 
of the ministries?
    Mr. Dibble. We take the point that the people who know how 
to run Iraq are probably Iraqis; they know where the keys are, 
they know where the supplies are, they know the people, and 
they know the language; this is their country, after all. I 
think CPA is making an enormous effort to get the ministries up 
and running and to bring back those employees who are necessary 
to make the ministries run; I think that is a priority. It is 
not a high profile priority, but it is definitely happening.
    Mr. Shays. I know my time is up, but maybe in the course of 
this panel they can address some of those questions that were 
raised by the next panel. Thank you.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    The gentleman from Maryland.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    I thank all of you for being here today. As you all know, 
we have a request of about $20 billion, asking the American 
taxpayer to help with construction, reconstruction in Iraq. 
That is on top, of course, of billions that have been spent and 
billions that probably will be spent in the future. Given that, 
I think we would all agree that we would like to share the 
financial burden, as much as possible, with our allies and 
others in the international community. We have been working, 
trying to get a resolution out of the United Nations. The news 
today looks bad. I mean, the reports are that it doesn't look 
likely that we are going to get a resolution. My question is 
this: If we do not get a resolution out of the U.N. Security 
Council, what is your prediction as to what kind of support we 
are going to get at the upcoming donors' conference in Madrid? 
And I would like you to be as specific as possible in terms of 
what exactly you anticipate in terms of dollars we'll receive 
from other potential donors.
    Mr. Dibble. It is very difficult for me to give you 
specific numbers because the campaign is now underway to 
persuade donors to come to Madrid to pledge significant amounts 
of money, both for the coming year and for out-years. The needs 
are enormous. The U.N. and the World Bank have either just 
released or are about to release their needs assessment. Other 
donors will be looking at that and will be looking at specific 
areas where they can slide in their contributions. I don't 
think we can abandon that effort, obviously, no matter what 
happens to the Security Council resolution. We need the 
international community up front, we need them with their 
checkbooks out, whether we come to some agreement in the 
Security Council or not.
    Mr. Van Hollen. Would you agree that failure to get a 
resolution in the Security Council will make it more difficult 
for us to get support?
    Mr. Dibble. Yes.
    Mr. Van Hollen. Let me ask you this. I mean, we have had 
some talk about the current Iraqi Governing Council and whether 
it reflects the country. I assume, regardless of exactly how 
represented they are, it is our goal to enhance their 
credibility rather than to undermine their credibility. Would 
that be a fair assumption?
    Mr. Dibble. Yes, sir.
    Mr. Van Hollen. OK. In light of that, given the fact that 
all reports indicate that the Iraqi Governing Council does not 
support the addition of Turkish troops, 10,000 Turkish troops, 
into the country, will we honor their request if they were to 
make that request official?
    Mr. Dibble. I don't want to speculate on what may be 
happening now between the Governing Council and the CPA on 
discussions. What I do understand, however, is that the 
expression of opposition to the presence of Turkish or other 
foreign troops in Iraq was the opinion of a single member of 
the Council attributing that opinion to everybody else too, but 
it was not an official act of the Council.
    Mr. Van Hollen. Understanding that, if the Council were to 
take an official position in opposition to the 10,000 Turkish 
troops, would we honor that request, given the fact that 
although they are an imperfect reflection of Iraqis, as you 
just said, they are, broadly speaking, reflective of the 
Iraqis?
    Mr. Dibble. The best answer I can give you is that we would 
certainly weigh their opinion very heavily against the obvious 
military necessity for the additional troops.
    Mr. Van Hollen. Well, it seems to me if we are trying to 
diminish the view that we are an occupying force that does not 
represent the will of the Iraqi people, we should honor the 
request of whatever group exists now that has at least some 
reflection.
    Let me ask you this: Did the United States make any 
commitments to Turkey with respect to actions we would take 
against the PKK in the event that they were to provide their 
forces? And if so, what specific commitments have we made to 
the Government of Turkey with respect to the PKK?
    Mr. Dibble. I would prefer not to go into specific 
commitments in open session. The PKK has been an issue for us 
as a terrorist organization for some time, irrespective of any 
specific commitments the Government of Turkey may have made to 
help on Iraq.
    Mr. Van Hollen. Well, let me ask you this. As part of our 
agreement with Turkey, do we expect that U.S. forces will be 
involved in any military actions against the PKK? Was that part 
of our understanding with the Turkish Government?
    Mr. Dibble. Sir, I would prefer not to discuss that in open 
session.
    Mr. Van Hollen. OK. Well, I am going to pursue an answer 
with you, then, in closed session, if that is classified.
    Mr. Dibble. By all means.
    Mr. Van Hollen. Let me just ask one last question, if I 
could, Mr. Chairman.
    The $9 billion loaned to Turkey that has been held up 
pending this question on forces, do you expect that to go 
forward? And is my assumption correct that is not part of the 
$87 billion; that is in addition to?
    Mr. Dibble. I don't know the answer, but I will get it for 
you.
    Mr. Van Hollen. OK.
    If I have a little more time, I would like to ask you, with 
respect to Iran, what role you see Iran's Government currently 
playing in Iraq? Are they being constructive? Are they 
undermining our efforts? What is your assessment of that as of 
today?
    Mr. Dibble. The role is difficult to assess with any 
precision because it is ambiguous. The Iranian Government has 
come out with a statement of objectives that are broadly 
consistent with ours--stability in Iraq, they have supported 
establishment of the governing council--all of which is 
positive. However, we also note that there are present in Iraq 
elements of the Iranian Government whose purpose is not obvious 
to us and who may be positioning themselves to undertake 
activities that are not consistent either with our objectives 
or the stated objectives of the Iranian Government. So it is 
hard to assess with any real precision at this point but we are 
watching very carefully.
    Mr. Van Hollen. Thank you, Mr. Chairman. I would just like 
to say I would like to followup later on some of these 
questions that were raised.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1303.026
    
    [GRAPHIC] [TIFF OMITTED] T1303.027
    
    [GRAPHIC] [TIFF OMITTED] T1303.028
    
    [GRAPHIC] [TIFF OMITTED] T1303.029
    
    Chairman Tom Davis. Thank you very much.
    Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman, and thank you for 
allowing us to join with you in this hearing today.
    I want to mention a couple of things and I will try to go 
quickly. Rick Jenkins, Dave Brown, John Agoglia, Ben Hodges, 
Mike Lenington are all classmates of mine from West Point, also 
colonels serving in theater. I got a chance to visit with them 
all and am very proud of their service. I think they are very 
reflective of what the Army and everybody is doing over there. 
I just want them to see that I remembered their names and 
mentioned them.
    I have also been impressed and I would encourage Members to 
get over to Iraq. We have had a lot of Members go. I have been 
really pleased with the response from a bipartisan group of 
Members who have been on the ground, have seen the needs, seen 
the progress, and are in essence vocally supporting what the 
emergency supplemental is trying to do, especially the $20 
billion. The field commanders say this is what we now need to 
move forward. I think everything I have read--and hearing 
others comments will confirm that. I would encourage Members, 
there are going to be a lot of opportunities to go.
    The third thing is, I had dinner with four soldiers from 
the 101st and I said, ``what one thing do you want me to bring 
back.'' One, a female Sergeant E-5 from Chicago said, ``family 
has to be with us 100 percent.'' The second one said, a 
Sergeant E-5 was concerned about the care that was being given 
to an Iraqi friend. He had made a friend, a truck driver, and 
this Iraqi was injured and he is just not receiving the care a 
soldier would. What a great statement; here this soldier is in 
harm's way, he drives in the community and he is concerned 
about an Iraqi citizen, a great comment. Another said, ``we are 
willing to pay the price.'' They know they are in a tough 
environment. The last one said, ``America needs to be 
patient.'' You can't turn over things overnight. I want to make 
sure I put that out on the record.
    The first question kind of goes with my colleague, 
Congressman Shays', line of questioning. What would be the 
political result if we would move sooner rather than later on 
turning power over to the Iraqi people without a developed 
constitution and without elections? What party is in the best 
position to recover and gain control? Mr. Dibble or Mr. 
Korologos.
    Mr. Korologos. It is hard to say. First of all, the 
religious freedom that has grown as a result of the war and the 
new status of the country has created a whole group of 
religious groups: the Shiites, the Kurds and what have you. So 
I suppose the short answer is that it would probably end up 
being a religious decision.
    Mr. Shimkus. I was told in theater that even the Ba'athists 
still have money squirreled away, they are still organized and 
you really risk a return of the Ba'athist regime. I think that 
really makes sense.
    I also want to turn to one of the other people who will 
make comments on the second panel, Beate Sirota Gordon, who has 
this line in her testimony, ``When General Whitney, General 
MacArthur's favorite advisor, called in about 20 members of the 
staff and said, you are now a constitutional assembly and, by 
order of General MacArthur, you will draft the new constitution 
of Japan in 7 days.'' This kind of goes to the point of where 
are we in Iraq. We have to move and get a constitution drafted 
and then we have to move to free and fair elections; that will 
take time.
    The question is, we don't want to push the Iraqis too fast 
and push our own constitutional positions on them, although 
that is what happened in Japan. We want them to have ownership 
but we don't want to wait too long. How do we balance that, 
because the key to success here will be a constitution followed 
by free and fair elections and then letting the Iraqi people 
make their decisions?
    Mr. Korologos. Ambassador Bremer has testified and said 
that the Iraqi constitution will be written by Iraqis. The 
Governing Council has appointed the Constitutional Preparatory 
Committee that is going around getting advice and counsel from 
these advisory committees throughout the country on what they 
may want in the constitution. That process is now underway. We 
don't want to put a timetable on it. Will it happen in 3 
months? I doubt it. Will it happen in 3 years? No. Somewhere in 
the middle of that. Secretary Powell said, and all of us hope, 
that it happens sooner rather than later. The sooner the Iraqi 
constitution occurs, the sooner you have an election which 
means when we turn over the reins of the government to the 
Iraqis. That process is underway and I say again, it would be 
written by and for Iraqis.
    Mr. Shimkus. Thank you.
    Mr. Chairman, thank you very much for your diligence in 
allowing me to join you here today.
    Chairman Tom Davis. Thank you very much.
    Mr. Davis.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman, 
and let me thank you for calling this hearing. I also want to 
thank the witnesses for coming to testify and share with us 
this morning.
    Let me also express my appreciation to our soldiers and all 
of those who are on the ground in Iraq given the highest order 
of their service as well as the indefinite situation of what 
may very well take place and happen to them while they are 
there. So I appreciate all of the efforts being made to try and 
reconstitute and rebuild this country.
    I want to get back to the line of questioning that has been 
started by Delegate Norton relative to contracting which seems 
to be very complex, very difficult, hard to understand, and 
hard to get at. I can certainly understand the fact that we 
need to be on a fast track--that is, things need to move with 
some rapidity--and also the complexity of what is needed in 
many instances to rebuild what has been torn down or what did 
not exist in the first place. Iraqis have expressed concern 
about not really understanding how they can get cut in or if 
there is an opportunity to do so. I am concerned as to whether 
or not, as we deal with this complexity, there is any room for 
small businesses? We have developed a concept in this country 
that small businesses, women-owned businesses, minority-owned 
businesses, ought to have an opportunity to participate in 
economic development activity. Although that is not the main 
reason for the redevelopment, there ought to be those 
opportunities. My question is, what kind of opportunities exist 
for small businesses, for minority and for women-owned 
businesses to participate in the rebuilding of Iraq?
    Mr. Korologos. Congressman, there is in the plan that we 
have submitted to Congress a request for a good deal of money 
for something called essential services and infrastructure. The 
objective is to restore to acceptable standards and try to 
create a civil society to provide the foundation from which 
Iraqis can rebuild Iraq. In that piece, I guess a month now, 
the Central Bank has opened, has already started making small 
business loans. They are starting, I think on October 15th, to 
distribute the new currency.
    This was an economy flat on its back. They had 50-60 
percent unemployment before the war. We have made every effort 
to startup small businesses. It is our feeling that small 
businesses are going to be the basis for the restoration of 
this country. From the small businesses, you are going to get 
political input and political extensions so they can start 
governing themselves. There is a big effort; small business is 
a big piece of what we are doing. Today in Iraq, you can walk 
or drive down the streets and see, as those Members who have 
been there have seen, huge marketplaces that are selling, as I 
said in my statement, satellite dishes, shoes, refrigerators, 
air conditioners, commodities that had not been available to 
the Iraqi people, all of it run by small businesses.
    Mr. Davis of Illinois. Let us talk about American companies 
that might want to try to get a piece of the action that 
Bechtel and Halliburton are getting. We have these big umbrella 
contracts and they are indefinite in terms of delivery or 
indefinite relative to quantity of what they are to provide and 
to deliver. Are there any ways to ensure that American small 
businesses can interact with the Halliburtons and the Bechtels 
of the world and get a piece of these large umbrella contracts?
    Mr. Korologos. The answer to that is that Bechtel and the 
big umbrella companies have held seminars both in the United 
States and in Europe. At one I recall there were 2,500 
subcontractors who showed up to get in on the process of how to 
do this. Understand something else here: all the contractors 
that have come through Iraq and by hopeful guidance from the 
Coalition Provisional Authority have been asked to make sure 
that Iraqis are put to work on these projects. There was one 
contractor, I understand, who wanted to bring in some 
Pakistanis to do some labor tasks. That contractor was turned 
down and said, no, you must go out and hire Iraqis, even to the 
extent that we are paying Iraqis to go dig irrigation ditches, 
to go clean up streets, restoring pension plans and what have 
you. So the whole effort is aimed at getting people to work. I 
understand and you understand that when you build a bridge or 
restore something, that project is over and we have to find 
something else for them to do after that, but small business 
has an input. I will let General Strock comment on the bidding 
process that has been made through these contract service 
seminars held throughout the United States and Europe in order 
to spread the subcontracts around.
    General Strock. I can't add much more to that, sir, except 
to say it is just standard practice in the Federal acquisition 
regulations that we include a component of small business 
opportunity. Again, we can provide the specifics of that for 
the record of how we are doing that, but I know it is certainly 
encouraged. As Mr. Korologos has said, that is a fundamental 
aspect of the economic stimulus package that is being discussed 
in CPA, how to encourage small business entrepreneurs.
    Mr. Davis of Illinois. Thank you very much, Mr. Chairman.
    I appreciate your answers and we know that standard 
practices do not really work for small businesses and minority-
owned businesses, so I appreciate your answer.
    Secretary Brownlee. May I add one thing, sir.
    Chairman Tom Davis. Sure.
    Secretary Brownlee. There are also efforts within the 
Army's divisions to demonstrate innovativeness and ingenuity 
and a desire to help. There are efforts within these divisions 
to go out and assist in standing up small businesses so they 
are capable of bidding for some of these contracts. That is 
being done by the Army within their respective areas of 
operation.
    Mr. Shays [presiding]. The Chair would recognize Mr. 
Murphy.
    Mr. Murphy. Thank you, Mr. Chairman.
    I want to thank all of you for your important testimony. 
You have helped remind us that there is another point of view, 
a reality of what is going on in Iraq, and helped us understand 
that economic and social instability breeds vulnerability. Of 
course, that is the root of terrorism and how the Taliban and 
Al-Qaeda were able to lay such a strong foundation in 
Afghanistan after the Soviet Union played cut and run; or how 
an effort more focused on punishment than rebuilding after 
World War I led us into World War II and gave birth to the 
likes of Hitler and Mussolini and others that ended up killing 
millions. So we have a lot of work to do.
    I want to focus primarily on some of the health issues, if 
I may. We have heard that prior to the war, many medical 
supplies and humanitarian assistance that was sent to Iraq was 
diverted by Saddam Hussein for personal use or some other uses. 
We had some testimony that the number of clinics is growing and 
improving as well as vaccinations. I wonder if you could give 
me a little more detail on pre-and post-war conditions of 
hospitals and clinics in Iraq in terms of were they filling 
needs before and what is happening now? I am not sure who would 
answer that. Perhaps Mr. Korologos.
    Mr. Korologos. When the war ended, we fully expected 
several things to happen. We expected a food crisis, refugees, 
health crisis, the oil fields to be burning, flooding, and none 
of those happened. The health crisis was a creation of Saddam 
not funding any health projects. Before the war, as I said, he 
budgeted $13 million for health care in 2002 which came to 
about 50 cents per person. We have struggled and have sent in 
more than 9 million tons of health equipment, oxygen, beds, and 
what have you. When Ambassador Bremer and I first got there, we 
visited hospitals that were horrible. It was open windows, 
flies, the sanitary conditions were as grim as you can imagine. 
We still take congressional delegations to those same hospitals 
and they come back aghast at how bad they are. I hate to say 
you should have seen it before we fixed it. They are still way 
below any standard that we have all come to know. We are doing 
our best to rebuild the hospital structure. They had an 
excellent medical operation that existed in Iraq.
    One other interesting thing, is Saddam forbade anybody from 
attending international conferences so the entire science 
community, including doctors, was forbidden from leaving the 
country to attend any seminars to find upgrades in medical 
treatment. One of the first things Ambassador Bremer did was 
open the doors to let this very brilliant medical operation 
running this thing under those circumstances to go find out 
what is new.
    Health care is a big priority and has been. We have opened 
all the hospitals, we have opened clinics. The budget we have 
requested shows a huge increase in requests for health 
facilities. We have asked for clinics, hospitals and what have 
you all over the country and I hope we can get them.
    Mr. Murphy. Is there an adequate number of positions for 
nurses and medical staff in Iraq or is there also a need for 
people?
    Mr. Korologos. I didn't hear you.
    Mr. Murphy. I was wondering if there are adequate numbers 
of medical staff and physicians in Iraq? Is there also a need 
for people?
    Mr. Korologos. I don't know how to answer that. Probably 
not, given the conditions I have seen in the hospitals. They 
could always use more. There are a lot of NGO's that have come 
in to provide assistance. I can't give you a precise answer but 
just in observing when you are at these hospitals, the crowds 
that are outside, the lack of wheelchairs, the deterioration of 
the hospitals, is a horrible thing to observe. One of the first 
things we have to do is start building the facilities in which 
these doctors can start functioning.
    Mr. Murphy. Mr. Chairman, I would like to request that if 
we could get more information on such things, I would 
appreciate it. I know there have been programs for more 
inoculations and vaccines provided, information on some of the 
disease risks that continue there and other medical needs. I 
certainly think we need to know for future budget reasons but I 
also have to think the American people would like to know 
because that is something with which we can all identify and 
our hearts go out to folks who have been subjected for so many 
decades to a medical disaster.
    Thank you very much.
    Mr. Shays. I thank the gentleman.
    Mr. Tierney.
    Mr. Tierney. I thank the chairman and thank all of you 
gentlemen for your testimony and for the work you are doing.
    I think the recent edition of Time pretty much says a lot 
about what the American people are thinking. The mission is not 
accomplished and how Bush misjudged the risk of fixing Iraq. I 
don't think anybody raises issue with the performance of our 
troops or the military aspects of winning the battle. The fact 
is, there was total misjudgment apparently of what it was going 
to take to go in and put this thing on solid footing. On May 1, 
2003, clearly the mission was not accomplished. We have had 170 
deaths of U.S. soldiers since that date and we have many, many 
wounded. To my knowledge, I am not aware that the President has 
visited any of these returning wounded soldiers to this 
country. We have had two potential Iraqi leaders assassinated. 
Sergio deMello of the United Nations has been killed. The oil 
flow which this administration told the American people would 
be used to fund reconstruction is some days doing less than 
one-half of what it was producing pre-war and all the 
administration says is that there are challenges greater than 
we anticipated. That probably should not be the case and I 
don't, Mr. Korologos, do you want to tell us, was there too 
much reliance by this administration on Mr. Chalabi or people 
like him? How was it that with the intelligence they claimed to 
have had and all the information they claimed they knew about 
this country pre-entry, that we now hear stories of things that 
weren't anticipated?
    Mr. Korologos. First of all, Congressman, the President has 
visited the troops, the wounded troops here in the hospitals, 
so I want to set the record straight on that.
    There are problems. The war, quite frankly, and I say this 
with careful thought, ended too soon. What I mean by that is, 
as we got closer to Baghdad, the Ba'athists and the fedayeen 
disappeared and melted into the population. They took their AK-
47s with them and still harbor hope of trying to come back. Our 
soldiers are out there on dangerous missions trying to root 
them out.
    I also must say very quickly that it is in what we call the 
Sunni Triangle, which is an area between Tikrit and Baghdad and 
over to Ramadi, where most of these problems occurred. That is 
about 1 or 2 percent of the country. It is about 1 or 2 or 3 
percent of the population that has hope they might return to 
their old glory days. The poll the New York Times and the Zogby 
people had 10 days ago, 2 weeks ago, showed that there is 
support for what we are doing. Those of you who have been there 
have seen the population and the children on the streets waving 
at our soldiers and waving at us as we go by. Yes, there are 
problems. Security issues have arisen. First of all, those 
people who are Ba'athists and fedayeen who disappeared into the 
population. Second, the 100,000 prisoners that Saddam released 
10 days or 2 weeks before we got into Baghdad are all murderers 
and thugs; we are trying our darnedest to get them back. There 
are no records, no computers, no files on who these people are. 
Yes, there were some political prisoners, but most were 
criminals and if you can imagine a criminal being put in jail 
in Iraq, he must really have been bad. So those guys are out 
there doing damage to us. The third element, as the military 
will tell you, is the outsiders who seem to be wanting to come 
in from Iran and Syria and disrupt and throw oil on troubled 
waters. So the security issue is one that has taken a lot of 
emphasis and a lot of support from General Sanchez and our 
soldiers over there and it is a problem with the Coalition and 
it is a problem with the U.N.
    Mr. Tierney. I don't think anyone disputes that we have 
problems. I think the issue is the failure to plan ahead of 
time to do this. I think now, in the face of this $87 billion 
request that confronts the American people, apparently we 
didn't have a plan going in. What is the plan now, what 
happened to the almost $400 billion that we have budgeted in 
our regular Department of Defense budget, and the first $69 
billion supplemental appropriation? Why do we still hear 
stories of people being over there without kevlar vest 
protection, some of our equipment still needing repair not from 
normal wear and tear that should have not been anticipated but 
from things that should have been anticipated in an effort when 
you go in on this basis? I think that is what people are having 
a hard time getting their arms around. Why should we be looking 
at passing an entire $87 billion at this point in time when 
there is some evidence that we have existing funding to take us 
into next year that clearly we want to know more about what is 
happening with internationalizing this effort. Perhaps, Mr. 
Dibble, you can tell us. Today's newspapers don't seem very 
encouraging, but what is happening on the diplomatic front? Do 
we have anybody else that is going to be coming in to help us 
out here? What is going on with the international conference in 
Madrid that is planned for October? Are any other countries 
stepping forward to give us something more than the $1 billion 
small amount we hear about?
    Mr. Shays. Candice Miller.
    Mr. Tierney. My apologies. I would have thought the 
Chairman would let you answer.
    Mr. Shays. Do you care to answer? I thought it was a 
statement. I am sorry.
    Mr. Dibble. I can speak in general terms. The conference in 
Madrid is scheduled for October 23-24. There has been a meeting 
of the core group which is the lead donors for this effort 
earlier this week. There is a systematic campaign underway, 
diplomatic as well as personal, to ensure that we get as much 
as we can as soon as we can, if possible before Madrid to 
ensure the burden is adequately spread across boundaries.
    Mr. Shays. Ms. Miller.
    Ms. Miller. Thank you, Mr. Chairman, I appreciate the 
opportunity to ask a question. I certainly appreciate the panel 
for coming today. I have listened to your testimony. It is 
fascinating to hear what is happening in Iraq.
    I think we are at such a pivotal moment in world history, 
quite frankly. We have the ability, I think, to either get the 
job done or not, to really have a positive impact on what is 
happening in the Middle East positively or not, and I think the 
question for us is whether or not we actually have the 
political will to finish the job, to reconstruct as necessary 
and to do what needs to be done there.
    I also believe that Al-Qaeda certainly has underestimated 
the resolve of the United States. It certainly underestimated 
the resolve of George W. Bush. I think they thought that after 
September 11, a couple of cruise missiles, we would go back to 
our football games or something. They never thought about 
Afghanistan, they certainly never considered the possibility of 
what has happened in Iraq. As I listened to some of you 
gentlemen talk about the Iranians being a little nervous, I am 
glad to hear those kinds of things. I think we are having the 
desired impact on some of these rogue regimes.
    I think it is also important, and it was very interesting 
to hear all of you, to continue to point out that the kinds of 
problems that are occurring in Iraq, that we are encountering 
in Iraq, are not because of collateral damage, because of the 
theater there. If you have inadequate underground, inadequate 
transmission lines, problems with the water supply, that would 
have been there whether we went in or not. It is because of the 
Saddam Hussein regime and what happened there.
    My question is probably to Mr. Kerik. I listened to you 
talk about how you were vetting the various individuals that 
you are putting into the Iraqi police force there. I think that 
is making certain the ability to police themselves, such a 
critical component for any society. But it is also my 
understanding that there were several, perhaps two, Republican 
Guard units that were not engaged during the war. As you 
mentioned, some of these have sort of faded into the country 
and a free Iraq to them is a dangerous thing. They are 
apparently the ones, certainly some of them, who are causing a 
lot of the terrorist problems in their own country, among their 
own people. Can we be certain, do you feel comfortable, that 
these individuals who have to be quite intelligent individuals 
are not infiltrating the police force and that they don't 
appear at a later date and manifest themselves with further 
problems?
    Mr. Kerik. The vetting process we have gone through in Iraq 
from the beginning was ordered by Ambassador Bremer. Within the 
police force, the police services, customs, immigration and 
border services, we took the top three levels of the Ba'ath 
Party and eliminated them from the agencies. From that point 
on, we tried to identify leaders within the agencies, within 
the different departments, that we felt confident were 
trustworthy, loyal and had integrity and honor.
    Today, the Senior Deputy Minister of Interior is a man by 
the name of Ahmed Ibrahim, who before he was appointed by me as 
the Senior Deputy Minister, was the chief of operations for 
Baghdad and before that, he was the Commandant of the Academy. 
In all of those positions, over about a 4-5 month period, we 
gained an enormous amount of trust in him beginning with the 
fact that he had been arrested by Saddam, been imprisoned for 
more than a year, been tortured on a weekly basis, had been 
electrocuted, and was adamant about his opposition to the 
regime, to Saddam and Saddam's loyalists.
    In the time that we have been in Iraq and Ibrahim has been 
in charge of the police service, he has put together special 
operations units and special enforcement units to go out and 
hunt down the Fedayeen Saddam which are Saddam's trained 
assassins and killers, to hunt down the former Ba'athists out 
there committing attacks against the Coalition. We have found 
that if you pick the right Iraqi leaders, they will find the 
people they need to get the job done. I will give you one 
example before I close.
    I told Mr. Ibrahim when he had the Academy that I didn't 
want anybody affiliated with the Ba'ath Party or with former 
ties to Saddam involved in the Baghdad Police Department. The 
next day I came back to the academy where he had his office and 
there were about 1,000 Iraqis outside the gates. He was on the 
inside with a small staff of people. When I finally got through 
the crowd and pushed through the gates and got inside, I said 
to him, ``what is going on, what are you doing?'' He said, 
``you said no Ba'ath affiliations; they are outside, I will 
pick one by one who is going to work for the new Iraqi police 
service.'' I think that is the key to our success. Let the 
Iraqis do their job. They know who the fedayeen are, they know 
who the Ba'athists are, they know who the loyalists are. Pick 
the right ones at the top and let them do their job and that is 
what we are doing.
    Ms. Miller. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman and the lady.
    Mrs. Maloney.
    Mrs. Maloney. Thank you.
    First, I would like to welcome Bernard Kerik, the former 
police chief from the city of New York who led us so 
brilliantly after September 11. Welcome.
    I would like to know how the members of the Governing 
Council are being protected? I was deeply concerned when the 
woman member was murdered. I have read reports where women 
cannot even go out on the streets.
    Second, I would like to thank the chairman for including 
Mrs. Beate Gordon who I think is one of the world's most 
extraordinary women. She single-handedly created civil rights 
for Japanese women; she is on the next panel. I personally 
believe it would be a disaster beyond words if the women of 
Iraq are not included in the constitution with the right to 
vote, the right to health care, the right to education. It 
would be a tragedy if women's rights were rolled back because 
of American invasion.
    My most troubling question deals with two articles that 
were in the paper today and I ask permission to put them in the 
record. It talks about Secretary Rumsfeld not even knowing 
about the reorganization of the Iraq reconstruction. He is 
supposed to be in charge of the reconstruction. I deeply 
believe, Mr. Chairman, that he should come before this 
committee before we vote on the $87 billion and the 
reconstruction to give us an update.
    Mr. Shays. Without objection the articles will be inserted 
in the record.
    Mrs. Maloney. There has been a lot of talk about contracts. 
I have a positive story on contracts. When I was in Iraq, I met 
with General Petraeus from the 101st Airborne. He is doing a 
remarkable job. He told us this story: he had a contract--he 
needed cement to rebuild the houses in the area--and a $15 
million contract was given to an American company. He kept 
prodding them, prodding them, prodding them to act. They never 
acted so he put on a bulletin board the fact that he needed to 
build a cement factory, could anyone help him. An Iraqi 
businessman came forward, used $80,000 from the confiscated 
money from Saddam Hussein and the cement factory is up and 
running. So the story shows, I think, brilliant management. He 
saved taxpayers money and he employed the Iraqi people so they 
are on our side, not fighting us. Another moral of this story 
is that you don't have to build the cement factory to American 
standards, build it to Iraqi standards; it is working. Let the 
Iraqi businessman follow the American model of investing his 
profits into making the business bigger and stronger. I am 
disturbed by the fact that one sole-source contract to an 
American contractor of $900 million, only $50 million is 
contracted to the Iraqi people, employing them and saving 
taxpayers' dollars.
    I want to come back specifically with an issue that I feel 
so strongly about that I place the question in writing to the 
panel. It concerns the request for rebuilding the oil fields. 
According to the supplemental request and the Army Corps of 
Engineers, it would cost $1.1 billion to restore the oil 
production to prewar levels of 3 million barrels per day. Then 
the supplemental asks for twice that and then you include the 
$1.4 billion we have already spent. That means we are paying 
three times what the final work plan proposed by the Army Corps 
of Engineers projected. This shows, I would say, mismanagement, 
but I will wait for your answers.
    Second, I would like to place in the record page 28 of the 
Rehab and Reconstruction for Iraq Coalition Provisional 
Authority, and that says, and I question this with great 
sincerity, ``The funding will also initiate the development of 
new oil and gas fields.'' I believe many Americans would like 
to help with reconstruction but I don't think they feel they 
need to build new fields in another country when we have so 
many problems at home.
    Mr. Shays. If the gentlelady would suspend for a second, we 
just have 20 seconds left. You have to give him a chance to 
answer some questions.
    Mrs. Maloney. Very quickly. It said that, ``Funding will 
allow commencement of the planned new refinery that will 
increase domestic capacity.'' I am for rehabbing but are we 
going to invest in new structures, particularly when the Army 
Corps of Engineers said it would only cost $1.1 billion and we 
are now up to $3.3 billion? I for one would like to go back to 
the Petraeus model of doing things cost effectively, saving the 
taxpayers money and employing the Iraqi people.
    Otherwise, congratulations to the Army for your brilliant 
bravery and the fine job you are doing. I met many wonderful 
members of the military from the district I represent who are 
really putting their lives in harms way every day. The American 
people are very proud of them and I am particularly proud of 
the work that General Odinaro and General Petraeus are doing.
    Mr. Shays. Mr. Janklow, you have the floor.
    Mrs. Maloney. Can I say one thing because we don't have 
much time. Chris, this is very important. Some of the generals 
told me that in creating the domestic centers in Iraq, they are 
putting women on those centers. I think that is incredibly 
important. I would like a listing from the CPA of all the women 
who have been put in positions. I think this is tremendously 
important. And second, the point that Senators and Members of 
this Congress cannot get the information on the contracts. In 
all sincerity, I want to be supportive but we have to have this 
information before we vote. We have to know where is the money, 
where was it spent. Petraeus gave us the information, the CPA 
should be able to give us the information.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T1303.030

[GRAPHIC] [TIFF OMITTED] T1303.031

[GRAPHIC] [TIFF OMITTED] T1303.032

    Mr. Shays. Mrs. Maloney, hold on for a second. You had 6\1/
2\ minutes and I just wanted to say to you we will have a 
second round if you have specific questions, but there was so 
much to be said. I am going to go to Mr. Janklow and we can 
come back if you have specific questions you want to ask and we 
will make sure he answers.
    Mr. Waxman. Mr. Chairman, before Mr. Janklow. Mrs. Maloney 
asked a couple of questions. Maybe we can see if anybody wants 
to respond to her.
    Mr. Shays. Just wait a second, please. The way we are going 
to do it is, we are going to Mr. Janklow. We will come back to 
Mrs. Maloney and she can ask her specific questions and we will 
take them up. She will have her time. She had 6\1/2\ minutes to 
make a statement.
    Mr. Waxman. Mr. Chairman, if I might just----
    Mr. Shays. Mr. Waxman, please don't.
    Mr. Waxman. Mr. Chairman, I know you like to do what you 
like to do, but we do have rules and the rules are that Members 
can take 5 minutes to ask questions. They can, within that 5 
minutes, ask for responses to the questions. Mrs. Maloney did 
ask some questions. I think we ought to give the panel, if they 
want to say something in response to some of the questions she 
asked, give them an opportunity. If they choose not to, they 
don't have to. Mrs. Maloney did ask for things for the record.
    Mr. Shays. Thank you. This is what I would prefer and I 
think Mrs. Maloney knows me to be a very fair person. She had 
6\1/2\ minutes and I would like Mr. Janklow to ask questions. 
We will come back to her, she can ask specific questions and we 
will take each one. I will be happy to yield her my time in the 
second round.
    Mr. Janklow.
    Mr. Janklow. Thank you very much, Mr. Chairman.
    As you folks can see, we try and put tight timeliness on 
you in getting stuff done in Iraq and you have to meet it by 
the deadline but we have a very difficult time ourselves 
meeting our own speech deadlines when it comes to working 
within the framework that we have allocated to us.
    Back a long time ago when I was a Marine in the 1950's, we 
used to say we dealt with scuttlebutt, we dealt with rumor in 
ascending order, we dealt with gossip, we dealt with 
speculation and if it was really rank, we called it grapevine. 
That is what is going on and I am picking up from what Mr. 
Sherwood said about the issues vis-a-vis the National Guard and 
Reserve versus the full-time military. All of us are getting a 
huge amount of correspondence from our constituents who were 
called to active duty who feel they may not be getting equal 
treatment in terms of rotations and other things. It may not be 
the case, but as my mother used to say to me when she sent me 
to my room, ``you are going up there not for what you said to 
your sister but for the way you said it to your sister.'' I am 
wondering is there a better way, Mr. Ambassador, that you can 
communicate to those troops as to what the policies and 
procedures are? By the time it gets to their families at home 
and then gets to us, it is third, fourth or fifth-hand and it 
is pretty rank. I guess I am making a statement is what I am 
making but do you think there is a better way the military can 
pursue the information to their troops in the field so at least 
they get the feeling of the reality, that they are being 
treated equally because I don't think there is anyone who 
really believes you are treating the active forces differently 
than the Reserves or National Guard you called up but people 
feel they are being treated differently. Do you understand what 
I am saying?
    Secretary Brownlee. Sir, we have been frustrated by this 
too because it seems there would be a discussion of something 
and the next thing you know, it is on the Internet and in the 
papers.
    Mr. Janklow. Let me give you an example, and I am 
interrupting you and being rude, but I wrote on behalf of 
constituents of mine a letter to the Department of the Army. I 
got back June 25 the most sterile generic letter you could 
possibly get dealing with rotations, to the point I didn't send 
this back to my constituent. I felt all they would do was 
become offended by what they felt would probably be 
bureaucratic runaround. I will leave a copy of this with you 
but the point is, you need to be a little more hands-on in 
terms of how you treat people given the fact that they have 
been called up a lot over the last 8 or 10 years. It used to be 
we called them weekend warriors and if there was a big war, 
they would be called up. Now they are called up for Panama, for 
Grenada and to work with the Norwegian Air Force on a mission, 
they are called over to Bosnia, they are being called up all 
the time. They are having to drop the plow, drop the pen, shut 
down the cash register and go off to war or a mission and come 
home. That is all well and good. It was the Minutemen who saved 
us at Concord Ridge but the point I am making is, it is the way 
people feel they are being treated as opposed to the way they 
are being treated. Can you go to work on a better plan? That is 
all I am suggesting.
    Secretary Brownlee. I assure you that we are and in fact, 
one of the reasons we put down the policy we did of up to 12 
months on the ground was because we wanted to establish clearly 
what the policy was and try to stop just what you are 
discussing, the rumors and those things floating around.
    Mr. Janklow. I am switching subjects now but we hear the 
tragedy virtually every day or every couple days of more 
American troops being wounded or killed in the theater of 
operations. I think it would be important for the American 
people to know and I wish you would place in the record in the 
first 12 months after the peace accord was assigned on the 
battleship Missouri, how many American soldiers were killed in 
the Pacific? It would be important to know how many American 
soldiers were killed or injured in Europe after the Germans 
surrendered in World War II. It would be important to know how 
many Americans were injured in other theaters of operations. As 
a Marine in the 1950's, I can remember Japanese still 
surrendering in islands in the Pacific where they held out for 
great periods of time. I think it is important that we put 
history into perspective, that this is not a friendly place. We 
had to go over there and invade it and trying to bring the 
peace is incredibly important.
    My time has expired, Mr. Chairman. Thank you.
    Secretary Brownlee. Thank you, sir, for your interest.
    Chairman Tom Davis [presiding]. Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman. I do want 
the chance to ask some questions. I let others go ahead out of 
courtesy to them.
    As I indicated earlier in my opening statement, based on 
the information I have received from many different sources, I 
am concerned that taxpayer money is being wasted in Iraq. 
Billion-dollar contracts are going to well-connected companies 
like Halliburton and Bechtel when the work could be done much 
more cheaply by local Iraqi companies. I want to go through 
some examples.
    I mentioned earlier, and Mrs. Maloney mentioned, the 
general in charge of northern Iraq, General David Petraeus, 
told a congressional delegation that included my staff that it 
would cost $15 million to bring a cement plant up to working 
order. He ended up giving that to local Iraqis to do and it 
cost only $80,000. Another example, according to Judge Wael 
Abdul Latif, a member of the Iraq Governing Council from Basra, 
western contractors charged approximately $25 million to 
refurbish 20 police stations in Basra by providing new doors, 
windows, paint, and furniture. Latif contends that a qualified 
Iraqi company could have done the work for just $5 million. Ms. 
Sondul Chapouk, another member of the Iraqi Governing Council 
and a civil engineer, described an instance in which the 
Coalition Provisional Authority renovated 10 houses in Baghdad 
for Council members at a cost of $700,000. Ms. Chapouk believes 
an Iraqi firm could have built 10 houses from scratch at that 
price and employed more Iraqis in the process. The estimates 
from the CPA confirm this point. According to the CPA, when the 
work is done by Iraqis, ``cost of construction is one-tenth the 
U.S. standard per square foot in general construction.''
    Despite the fact that we are overpaying U.S. contractors 
like Halliburton and Bechtel, there seems to be almost no 
attention being given to restructuring how we are awarding 
contracts to take advantage of low-cost Iraqi contractors. The 
CPA's justification for the $20 billion supplemental, for 
example, contains no discussion about how to restructure these 
contracts. General Strock or Mr. Korologos, why aren't you 
doing more to reduce costs to the U.S. taxpayers by using local 
Iraqi companies?
    Mr. Korologos. I am going to yield to General Strock who 
does the contracting. The short answer, Mr. Waxman, is that 
when we first got in there and found this devastation and found 
the economy flat on its back, we had to get started. We had a 
security problem, we had to get this country off the ground 
quickly and contracting was done as quickly as possible. For 
these individual anecdotal events, I don't have any answers 
except to say there is a lot of misinformation coming out of 
these Iraqi companies. I am not sure they could have done it 
for $80,000; I am not a contractor.
    Mr. Waxman. This is what they maintain. So your position 
is, and it is understandable, that faced with all the chaos, 
you turned to the companies with which the Army had contracts, 
Bechtel and Halliburton, and asked them to jump in immediately 
and do the work. Is that what happened, General Strock?
    General Strock. Sir, I think that is essentially correct, 
yes. We went into a nation that had no power, no 
communications, no water, nothing, and we did not have the 
ability to even inform people of opportunities, much less that 
they would have the opportunity to mobilize their forces and 
come to work. It has been very, very difficult.
    Mr. Waxman. I would submit that part of the problem is a 
structural one. As long as we are hiring big government 
contracts on a ``cost plus'' basis, these contractors have 
little incentive to reduce their costs. The more elaborate the 
project, the bigger they get paid, the more money they make. 
One example of that is, the administration offered points to 
Bechtel as an example of a contractor that is using local 
Iraqis as subcontractors. Although Bechtel's capital 
construction prime contract is currently at $920 million, 
Bechtel has said that as of October 1, only $54 million in 
subcontracts have been awarded to Iraqi firms. That is 6 
percent of this work that is going to Iraqi firms.
    I think what we are doing, and I would be interested in 
your response, is we are over-relying on large umbrella 
contracts with no opportunity for competition on task orders. 
We give a contract to Halliburton and it is broad--IDIQ or 
indefinite delivery, indefinite quantity contract. That means 
once the contract is awarded, the Government can award task 
orders worth tens or hundreds of millions of dollars without 
any competition. Isn't that the way it is done, General Strock?
    General Strock. In essence, I think that is correct, sir. 
The reason we go to those kinds of contracts is due to the 
great uncertainty. We were not able to definitize the 
requirements and do incremental competition for each of those 
task orders. In a situation like this, we typically operate in 
an indefinite delivery and indefinite quantity mode.
    Mr. Waxman. In the case of oil infrastructure work in Iraq, 
the Army gave Halliburton a sole source contract with no 
competition whatsoever. There is no other company that is 
allowed to compete even though there are other corporations on 
the ground in Iraq that could do some of the work for less. The 
Government task orders to Halliburton are not subject to any 
competition and together they are now worth $1.39 billion.
    I would submit to you that there are a lot of jobs that 
either Halliburton or Bechtel could do but, the way the 
situation is set up, they never submit competing bids. Instead, 
Halliburton has a monopoly on the oil work, Bechtel has a 
monopoly on the reconstruction work. It seems to me if we 
either issued smaller contracts with competition or we could 
award larger, multiple award contracts, that would mean that 
more than one company would be awarded large umbrella contracts 
and could compete for individual task orders. That is the 
approach favored by OMB because it imposes greater price 
competition and results in savings for the taxpayers. Now that 
we are moving away from the crisis of war contracting to a more 
orderly and predictable process of reconstruction, shouldn't we 
think about moving away from these anti-competitive IDIQ 
contracts?
    General Strock. Sir, in fact, when we determined that the 
most practical and appropriate way to fix the oil 
infrastructure was to go sole source, at that very moment we 
embarked on a competitive process to provide a follow-on 
contract. Within this month we should see that competitive 
contract for the oil industry being awarded. We recognize that 
it is much better to go in an open and competitive way.
    Mr. Waxman. Isn't that going to give one contract to the 
north and one to the south without competition?
    General Strock. It's competed.
    Mr. Waxman. But one for the north will be awarded?
    General Strock. As I understand, it is one for the north 
and one for the south. I haven't been personally involved but I 
think that is correct. I think the plan for the supplemental is 
that it will be full and open and we will go to multiple 
contractors so we can mobilize a much greater portion of our 
capability. Certainly the performance measure on that will be 
their plans and records for employing local Iraqi companies.
    Mr. Waxman. Thank you.
    Chairman Tom Davis. As I understand it, Halliburton's role 
in Iraq is based on its Brown & Root subsidiary. Brown & Root 
holds a very competitive award, one for which they had to 
compete with other companies, the LOGCAP Contract, which 
provides a wide variety of logistics services to DOD overseas; 
I think that came out of Bosnia. They were awarded that, it was 
competitively bid. You come into a new country, there is no 
economy out there working, it is in shambles, and it sounds 
like some Members would like to have gone to a competitive bid 
and waited 6 months before we could have capped the oil fields 
and done those things. Obviously we couldn't do that, so we 
went with a pre-competitively bid contract that in fact was a 
legal scheme to do this and now, as soon as we are up and 
running, we are going to go out and competitively bid this area 
again. Is that basically it?
    Secretary Brownlee. Yes, sir. The LOGCAP Contract to which 
you referred was competitively bid and awarded to Brown & Root 
in December 2001. This is a contract the Army keeps in place so 
when there is a contingency, the contractor can respond to 
provide logistics, dining facilities and all the things we need 
these days when we go on these contingencies.
    Chairman Tom Davis. And other companies bid on that at the 
time?
    Secretary Brownlee. Yes, sir, they did. In fact, another 
company had it prior to Brown & Root getting the contract in 
December 2001. These are kept in place for the kind of 
contingencies you mentioned; that is what we took to war.
    Chairman Tom Davis. Let me make one point. When we start to 
talk about fees and costs, let us remember that we are working 
under rules and regulations. Only costs that are allocable, 
specifically allocable under the FAR, the Federal Acquisition 
Regulations, are allowable. Other costs and fees, and this is 
scrutinized by the Defense Contract Audit Agency, have to be 
allowable and reasonable, and only those are reimbursed. It is 
not uncommon in these situations that they withhold final 
payment to go through the audits to confirm that they are 
allowable costs; that is standard procedure. Also, the fees in 
this area are not big fees compared to what you get in the 
private sector; that is my recollection, and I was a government 
contracts attorney for close to 20 years before I came here. Is 
that fair?
    Secretary Brownlee. Sir, I think that is fair although you 
have to understand also, when you are in a combat zone and the 
contractor has to be indemnified and all those things, 
sometimes the costs go higher than they would if you were just 
on normal basis.
    Chairman Tom Davis. Of course.
    I would be happy to yield, Mr. Waxman.
    Mr. Waxman. Thank you.
    I thought what you pointed out in this questioning was 
helpful to understand how it operates. The point I am trying to 
make is, if you have one big contract without specified tasks, 
sometimes you can't specify them but sometimes you can, there 
is no real competition for the task. So you give a contract to 
do north and south, and one competitive contractor will compete 
for the monopoly. I would like to see, and I think OMB is 
recommending this, if you can settle on some of the tasks and 
have price competition for those tasks. That can help us hold 
down the price on it rather than give a monopoly to Bechtel for 
one purpose and a monopoly for Halliburton for the other or 
divide the country north and south and let them compete for a 
monopoly for the north.
    Chairman Tom Davis. Let me recall my experience. I don't 
know what the right vehicle is. I am not close enough to this, 
and what Mr. Waxman says may in fact be true, but it may also 
be true that we are dealing with a foreign country where people 
there have their lives at risk and you are not going to have a 
lot of companies move people over there on a contingency that 
they might get something. In that case, by that doing large 
contracts you have the infrastructure up and operating; it is 
competitively bid originally but if you compete each task you 
may not get the same kind of commitment and economies of scale 
you could get. I don't know the answer, and I think what we are 
saying is let us look at this very carefully because obviously 
the more competition we get, the more we are able to involve 
Iraqis in doing their own work. It is not only a nation 
building exercise, it helps their economy as well. I think that 
is the point. I don't know what the answer is. Obviously we 
need to look at this in some detail.
    Mr. Waxman. Just one last point because I think we all want 
the same objective. My concern is Halliburton has a sole source 
contract to deal with the oil industry and Bechtel has an 
exclusive contract to deal with reconstruction. They are just 
sitting there with monopolies. That isn't going to produce the 
cost savings. We have to figure out some way, if you will 
forgive me as a Democrat for lecturing the Republicans, on some 
way to get competition and market force where it is possible. 
There are times when it is not, that is why we have these 
ongoing contracts. But right now we have put ourselves in a 
position where we have an ongoing, contractual monopoly with 
two major corporations. I don't think it is serving the 
taxpayers' interest or the Iraqi reconstruction.
    Chairman Tom Davis. Aren't there over a dozen contractors? 
There are dozens of contractors over there in Iraq, am I right?
    General Strock. There are, but in these particular sectors, 
it is Bechtel on the infrastructure and Halliburton in KBR on 
the oil. It is our job as the government agency with the 
technical capacity to monitor how these funds are spentto not 
simply turn the contractor loose with a bag of money. He has to 
come in, we write the statements of work, we ensure that cost, 
quality and schedule are met, and we demand that only the 
necessary things are done. That is the responsibility of our 
agency. So the competition occurs up front, ideally. Not so in 
the case of the KBR contract, and I think there are good 
reasons for not being competitive in that situation, but it is 
our responsibility to make sure we get best value for the 
taxpayers' dollar.
    Chairman Tom Davis. Well, let us get to the nub of this 
thing. There are some people who don't like the contractors you 
chose because they have had affiliations with people in office. 
A senior Senator's husband's company also received a large 
contract for work over there, just to make this a bipartisan 
bashing, if you will. We haven't been complaining about that. 
Factually, we have people making these decisions that aren't in 
the political loop at all. These are professional contracting 
agents and procurement officials who are doing their job.
    You need to understand that there is a lot of scrutiny on 
this and there are political ramifications and there are 
financial ramifications and I think we need to be aware of 
that. So to the extent we can get competition, even on the 
small tasks, to the extent we can involve Iraqis, we think that 
is a good thing. Is that a fair statement?
    General Strock. Absolutely.
    Mr. Waxman. No, it is not a fair statement and I take some 
exception to it because I thought it was rather personal. I 
don't think you ought to question my motivation, Mr. Chairman.
    Chairman Tom Davis. I didn't.
    Mr. Waxman. I am not questioning the contract to 
Halliburton.
    Chairman Tom Davis. You only mentioned it 20 times.
    Mr. Waxman. Or the administration and Vice President 
Cheney. I am questioning Halliburton's contract because it was 
a sole source, no competition for it.
    Chairman Tom Davis. That is not accurate.
    Mr. Waxman. Just a minute.
    Chairman Tom Davis. They won it. It is my time, Mr. Waxman 
and they won this competitively in Bosnia, they beat out other 
companies for this, you had an emergency situation and now it 
is being competed again.
    Mr. Waxman. No, they got a sole source contract to do the 
work in Iraq.
    Chairman Tom Davis. That was KBR.
    Mr. Waxman. Mr. Chairman, may I make a sentence? I know it 
is your time and your committee but when you say that I am 
motivated because of people being close to the administration, 
I want to make it clear that I am motivated because I think the 
taxpayers are getting ripped off. If we have a contract where 
there was no competition for it, on a cost plus basis, to a 
company that has a record of over-charging the taxpayers of 
this country. And I will be glad to put into the record of this 
committee the background for that statement.
    I would rather see, if we are going to have reconstruction 
in Iraq, that we try to get competition and not close out the 
Iraqi people, not close out other companies, from competing for 
some of these tasks. I don't think my motivation ought to be 
questioned. As I said, I think we all want the same goal. I am 
afraid we are not achieving that goal. I have gone through 
instances where I believe we are over-paying and these 
contracts end up being goldplated.
    I must say, General, the Army does not have a good record, 
when you look at Halliburton's history of scrutinizing the 
contracts where we have overpaid in the past. We want to work 
with you to do better, but by its nature, I think we end up 
hurting the taxpayers' best interest in some of these 
contracts.
    Chairman Tom Davis. Let me say this. I didn't pull this out 
of the air. There have been numerous statements by my friend 
and others in point of fact linking Halliburton to 
administration officials in the same sentences, in the same 
press releases, although maybe not today. Let us understand 
that there are political ramifications and it is important that 
they understand this, Mr. Waxman, because as they make 
decisions at the administration level, they should be more 
sensitive to those kinds of things and ask for more 
competition. That is something we both agree on.
    Mr. Waxman. That is one of the reasons why I thought this 
administration would have been more sensitive, because of the 
connection of the vice president, not to give Halliburton a 
sole source contract, with no competition.
    Chairman Tom Davis. Mr. Waxman, reclaiming my time, the 
fact of the matter is, that is not what happened. The fact of 
the matter is, and let me just restate this because I think it 
is important everyone understands it: Halliburton's role was 
based on its Brown & Root subsidiary, and they won a 
competitively awarded contract under the previous 
administration in Bosnia called LOGCAP to provide a wide 
variety of logistical services to DOD overseas. A task order 
under that contracting vehicle was used to perform the 
contingency planning for extinguishing oil fires and to assess 
the damage to the oil fields. Through LOGCAP, Brown & Root 
prepositioned people and equipment to be able to provide 
emergency response relating to the Iraqi oil system as well as 
other needs and services outlined under this contract. As we 
have heard today, we are now going forward and are going to 
recompete once we have this up and stabilized but there was 
nothing there otherwise. We had to move in quickly.
    Mr. Waxman, you have had your time.
    Mr. Brownlee.
    Secretary Brownlee. If I could quickly make three points, 
sir. One, the LOGCAP contract was, as you stated, competed. 
Two, there was a subsequent contract awarded to restore Iraqi 
oil. That is being recompeted, as General Strock said, as we 
speak.
    Chairman Tom Davis. Correct.
    Secretary Brownlee. The third point I would make is, what 
normally drives us toward these different kinds of contracts is 
the degrees of certainty and uncertainty and the degree of 
urgency; sometimes that costs more.
    Chairman Tom Davis. Thank you very much.
    I think we have another panel waiting and we have a couple 
of other questions. If we could be very quick, let us try to do 
maybe a question and we will start on your side, Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    On another subject, Mr. Dibble, I recently received a 
letter from the Department of State regarding Iraq that I found 
confusing. I believe the subject is relevant to the work of 
your bureau and I am hoping you may be able to provide some 
clarity on the matter. The letter was dated September 25 in 
response to a letter of July 21 I sent to the State Department 
regarding its December 19, 2002 fact sheet entitled, 
``Illustrative Examples of Omissions from the Iraqi Declaration 
to the United States Security Council.'' This fact sheet listed 
eight key areas where the Bush administration found fault with 
Iraq's December 7, 2002 weapons declaration. Under the heading 
``Nuclear Weapons,'' the fact sheet stated, ``The Declaration 
ignores efforts to purchase uranium from Niger, why is the 
Iraqi regime hiding their uranium procurement?''
    Since the issuance of that fact sheet, it has become known 
that by the time of the December 19 fact sheet itself, 
intelligence analysts at the State Department's Bureau of 
Intelligence and Research, and at the CIA, had already rejected 
evidence that Iraq was attempting to procure uranium from 
Niger. I asked the State Department to explain how this 
statement could have ended up in the December 19 fact sheet and 
who was responsible for creating the fact sheet. The State 
Department responded to me that, ``The Public Affairs Bureau 
prepared the fact sheet based on information obtained from 
other bureaus of the State Department.'' The letter didn't 
specify which bureaus provided the information.
    My first question to you is about the creation of this 
December 19 fact sheet. You are the Deputy Assistant Secretary 
of State in the Department's Bureau of Near Eastern Affairs. 
Did the Bureau of Near Eastern Affairs participate in the 
creation or review of the fact sheet?
    Mr. Dibble. Mr. Waxman, I was not there but I will assert 
for the record that I am sure we were, yes.
    Mr. Waxman. What would have been the nature of the Bureau's 
participation?
    Mr. Dibble. I would assume it would have had some sort of 
coordinating role.
    Mr. Waxman. Would the Bureau have provided information or 
recommendations regarding the language about Iraq seeking 
uranium in Niger, and if so, could you describe the information 
and recommendations?
    Mr. Dibble. Probably not.
    Mr. Waxman. Probably not. Why not?
    Mr. Dibble. I don't know the source of the information, how 
the information found its way into the report or the fact sheet 
was sourced. I would expect, however, that it would have come 
either from the intelligence community or from another bureau 
in the State Department, for example, the Non-Proliferation 
Bureau.
    Mr. Waxman. Can you describe what else you know about who 
would have participated in the creation of that December 19 
fact sheet?
    Mr. Dibble. I know very little. I would speculate that it 
was a broad, department-wide effort, led perhaps by the Bureau 
of Public Affairs but with input from many other bureaus in the 
Department.
    Mr. Waxman. The State Department's September 25, 2003 
response also asserted that, ``Both the NSC staff and the CIA 
were consulted on the fact sheet'' but we know from CIA 
Director Tenet's statement that the CIA had discredited the 
Niger evidence before the issuance of the December 19 fact 
sheet. Further, according to a June 13, 2003 Washington Post 
article, CIA officials denied a role in creating the fact 
sheet, stating that the CIA raised an objection to the Niger 
claim but it came too late to prevent its publication.
    I am wondering, Mr. Dibble, whether you can shed any light 
on this issue? Could you describe what you know about whether 
the CIA was consulted about the fact sheet, when such 
consultation occurred and the input the CIA provided with 
respect to the Niger statement?
    Mr. Dibble. Again, I cannot speak from personal knowledge, 
so I cannot say when or exactly what input was provided. I can 
only speculate on the basis of experience that when such 
products are put together, the CIA and others who may have 
relevant information are consulted.
    Mr. Waxman. What is a mystery to me is that you said it 
might have been the Bureau of Nuclear Non-Proliferation, which 
would have been Secretary Bolton. They deny they had any role 
in this. Then you indicated it might have been INR but you say 
INR wouldn't have had anything to do with it. I am trying to 
figure out who had something to do with this?
    Mr. Dibble. It is a fair question. I can certainly take it 
back. I am speculating myself at this point.
    Mr. Waxman. Perhaps you could help us and get some answers 
for the record from your colleagues at the State Department?
    Mr. Dibble. Certainly.
    Mr. Waxman. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. I think that is really outside your 
scope.
    Ms. Norton, you have been sitting there patiently. I think 
we can wrap up with you and let the panel go.
    Ms. Norton. Thank you, Mr. Chairman. I am overdue to give a 
presentation so I particularly appreciate your consideration.
    I have two questions. One involved the dilemma I am sure 
you face. Again this comes from reports that we don't want to 
do policy with contracting with former members of the Ba'ath 
Party. According to some reports in the press, some of the 
Iraqis say they didn't know about that and when informed about 
that, this is a quote and I wonder what is your reaction and 
how you deal with the dilemma, ``I can't believe that. Saddam 
was here for 35 years and to work you had to have contracts 
with the government. It was a government-run country. 
Otherwise, it was impossible, so why should we be punished.'' 
How do you deal with the fact that almost anybody who did 
business had to do business with this government? That may have 
meant like people who join the Communist Party, OK I have my 
card and these may be among the most experienced contractors 
and yet we don't want to have anything to do with real rogues 
from the Ba'ath Party. What is your policy and how do you 
ferret out that?
    Chairman Tom Davis. That is a good question.
    General Strock. It certainly is a dilemma and so many of 
the Iraqi people were members of the Ba'ath Party, many for 
simple survival as you pointed out, because you have access to 
education and other benefits. The de-Ba'athification order that 
Ambassador Bremer issued really looked at the upper levels of 
the Ba'ath Party, those committed members of the Ba'ath Party 
that competed for increased position in the Party. So we try to 
make a distinction between those. The de-Ba'athification order 
was very rigid in its application but it does leave room for 
reconsideration of those people who can clearly demonstrate 
they were members of the party strictly for convenience and for 
survival. You will find that particularly true in the academic 
world where you could not hold a professorship if you were not 
a party member; it is a dilemma.
    Ms. Norton. With contracting, could you have a contract 
with the government without being a member of the Ba'ath Party?
    General Strock. I don't know the answer to that.
    Ms. Norton. That is what we need to find out. Mr. 
Secretary, do you know that?
    Secretary Brownlee. No, ma'am, I don't but it is a good 
question and I will be happy to take it for the record.
    Ms. Norton. Thank you very much and I wish you would get 
back to the chairman on that.
    One more question. Again, there are reports that are coming 
up that we know corruption is rampant, we have done lots in our 
country because we have corruption here too. We have all kinds 
of rules and regulations and disqualification if we find out 
what you have been doing. Again, there are reports that 
companies demand kickbacks. Here is a quote I would like 
clarified, the claim that, ``when American companies hire Iraqi 
firms as major contractors, the Iraqi companies then demand a 
kickback called the `commission' from smaller firms in exchange 
for a piece of the job.'' What do you know about commissions? 
What can you tell us about commissions? It may have been the 
practice for doing business before. Are commissions part of the 
way in which Iraqi firms and subcontractors believe they have 
to do business today and what are you doing about it if it is?
    General Strock. Ma'am, I heard some peripheral discussions 
about a process used under the Saddam regime of a 10-percent 
commission that was paid to a government official for issuance 
of a contract. That money sort of disappeared and went into 
accounts. There is a name for it and I don't recall the name 
but it was a common practice apparently under the old regime.
    Ms. Norton. So what do you do about it now? Now you are 
faced with a culture that said you had to pay a kickback called 
a commission what does the Provisional Authority do about it, 
what does the provisional government in place do about it? Is 
it possible to issue regulations? How do you change the culture 
if you just accept that was the way business was done under 
Saddam?
    General Strock. I think we don't work that way and we make 
that clear to the Iraqis.
    Ms. Norton. But these are subcontractors. You don't work 
that way of course but we are saying, what are you doing about 
the fact that it was a part of the culture to demand a 
commission from a subcontractor? What are you doing about that 
practice?
    General Strock. As I said, I am not sure the practice 
currently exists.
    Ms. Norton. That is part of the problem.
    Mr. Secretary, I can't expect the General to know 
everything. This is a policy matter.
    Secretary Brownlee. I understand.
    Ms. Norton. Obviously you have a provisional government in 
place that is trying to deal with these pre-Saddam or Saddam 
practices. Very serious practice if we are allowing this to be 
built into the way we do business too because we see no evil 
and do no evil. What can you tell us you can do about the 
apparent culture of kickbacks that was a part of the way 
subcontractors had to do business with Iraqi contractors under 
Saddam?
    Secretary Brownlee. Well, I can tell you, as General Strock 
was going to tell you, that is not a part of our process, and 
if we were aware of it, then we would do what we could to 
eliminate it. I will look into it. I was not aware of it. The 
kind of kickbacks that you talk about would be considered a 
crime in this country and I hope would be considered a crime in 
their country under their new democracy.
    Ms. Norton. Could I ask that you look into it.
    Secretary Brownlee. I will. I would be happy to.
    Ms. Norton. And two, because this is very difficult to deal 
with. We find it difficult to deal with in this country and in 
this country when we are giving contracts to other countries 
who have such corrupt practices, it even gets worse, but this 
is different. We are remaking this country, we are helping them 
to do it the way we think it ought to be done, and the way I 
think most of them would believe it ought to be done. I would 
like to know from you what it is that you think you can do to 
halt this practice, if you find there is such a practice. I 
wish you would give that information to the Chair of the 
committee.
    Mr. Shays [presiding]. Did you want to make a response?
    Secretary Brownlee. Just a quick point. We are in the 
process now, as Mr. Korologos can tell you, of standing up a 
government, standing up a legal system, standing up a justice 
system, and what you are describing, as I indicated to you, 
would be considered criminal in our country. It still happens 
on occasion and we prosecute it. So we will do everything we 
can to eliminate it from the system as we know it, as we are 
administering it now and also insist that it be a part of their 
legal system and they will have to deal with it also.
    Ms. Norton. Thank you.
    Secretary Brownlee. As far as we are doing now, I will do 
what I can to look into it and see if that kind of practice is 
existing now as it used to.
    Mr. Shays. Mr. Frelinghuysen and then we will go to Mrs. 
Maloney and close with me and get to the next panel.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Good afternoon. I am Rodney Frelinghuysen. I sit on the 
Defense Subcommittee on Appropriations and was part of a group 
of 17 Members of Congress who recently returned from Iraq and 
had, I think, a very positive experience.
    Let me say, Mr. Chairman, I am most impressed by Ambassador 
Bremer and his team working in some very difficult 
circumstances. He has put together a first class team and they 
are doing so much to support the Iraqi people to be free; they 
are free but with 100,000 criminals let out by Saddam Hussein 
just before he hid himself, those people as well as Ba'athists 
and Saddam supporters and terrorists coming in over the border 
from Syria, Iran and probably from Saudi Arabia, it is 
remarkable what the Bremer team has done to establish security 
and provide the Iraqi people with the means to develop 
themselves into a first rate economic, freedom-loving 
powerhouse in the Middle East.
    Let me pay tribute. It is truly an inspiration to see, have 
met and all politics is local with some of my New Jersey Army 
men and women on the ground. It is a damned shame that a lot of 
the good work they are doing there is not being reported. As it 
was described to me, after the 1,000 embedded reporters left, 
they sort of left the third string of the press corps there. 
Most of those people file their report from the Al Rashid Hotel 
and they are not reporting on what the Coalition and 
Provisional Authority are doing and what a lot of brave Iraqi 
leaders are doing, men and women, in provincial capitals and 
cities throughout Iraq.
    Yes, the Sunni Triangle is a dangerous place for any 
soldier or civilian that is helping the country to operate, but 
I was most impressed by General Odinero, who actually is a New 
Jersey native, and he is on the ground leading in a major way 
reconstructing the lives of the Iraqi people who have lived 
under incredible oppression for 35 years.
    It was said to me, and I think it is an interesting fact, 
Mr. Chairman, that 70 percent of the population in Iraq today 
has known no other leader than Saddam Hussein. So we have a 
long way to go to tell them and show them the road to 
democracy. With your permission, I would like to enter into the 
record some more formal, perhaps less strong comments, but 
certainly cogent comments, with your permission.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Rodney P. Frelinghuysen 
follows:]

[GRAPHIC] [TIFF OMITTED] T1303.033

[GRAPHIC] [TIFF OMITTED] T1303.034

[GRAPHIC] [TIFF OMITTED] T1303.035

[GRAPHIC] [TIFF OMITTED] T1303.036

    Mr. Shays. We will note for the record that you said 
different reporters are now there. We also thank the gentleman 
for being here and thank him for going to Iraq.
    At this time, the Chair will recognize Mrs. Maloney. She 
has the floor for 5 minutes.
    Mrs. Maloney. Thank you very much, Mr. Chairman.
    I too had the opportunity to go to Iraq. Progress is being 
made. There are still some security problems, challenges, but 
as one New York soldier said to me, ``We are fighting for the 
greatest gift of all, freedom,'' and I am hopeful we will be 
able to achieve it.
    I respectfully request that my five prior questions be 
responded to in writing and I will get them to you this 
afternoon. I would like to build on the questioning of others. 
There has been a lot of talk about transparency and contracts. 
I think certainly before we vote on the $87 billion, we should 
have that transparency, not only in rhetoric but in the reality 
of numbers and information.
    I was impressed in Iraq how the generals in great detail 
could show you how they are spending their money, what they are 
doing and where they are going. Yet, when we ask for 
information on taxpayer dollars going there, we are not getting 
the answers. I think Members of Congress should be able to get 
detailed information on the process by which contracts are 
being awarded, the scope of specific contract terms, the 
details of task orders, and the payments being made to prime 
contractors. They have said in the press, they have said in 
this panel they are not getting that information. That is not 
fair to the people they represent, that they face a vote on $87 
billion without having received that information.
    Likewise, I would like to request an accounting of all the 
confiscated money that our people retrieved from Saddam 
Hussein. I truly believe it would be a positive story if other 
generals are following the Petraeus model of creatively hiring 
Iraqi people to rebuild their own country. I request that. I 
have asked for it several times. Again, we should have that 
information before we face a vote.
    Again, I am concerned about how decisions are made in the 
supplemental budget request. I have a document from the CPA or 
the Army Corps of Engineers and the Iraqi Oil Ministry that 
says it would take $1.1 billion to restore oil to the pre-war 
levels of 3 million barrels a day; the supplemental asks for 
twice that, and when you combine it with what we have already 
spent, then it is three times what the Army Corps of Engineers 
in their plan, the agency that was tasked to come forward with 
what it would cost and I am concerned about this. How did you 
come up with your numbers? If you are not even listening to the 
agency tasked to come up with the numbers, then I am concerned.
    I know General Strock that you are with the Army Corps of 
Engineers and possibly you were consulted but as I said, my 
staff met earlier with the Central Army Corps of Engineers here 
in Washington and they said they were never consulted or talked 
to. Why is the number now three times what they projected?
    General Strock. I could perhaps quickly respond and will 
provide a more thorough response in writing.
    A big part of the additional supplemental was $900 million 
for the import of fuels that we did not anticipate we would 
need but we have not been able to get the refinery system to 
provide those fuels for the internal consumption in Iraq. That 
is a big portion of that.
    The other part, about $575 million of the supplemental, is 
for requirements outside of the Corps of Engineers and Ministry 
of Oil work plan that was submitted in July. So those are 
longer range and yet very important elements. It is the 
development of the oil fields you mentioned and it is also 
building the new refinery, things we know we need to get 
started on now to put the infrastructure in a position where it 
can truly support the needs of the nation.
    The rest, about $500 million of the supplemental, really 
has to deal with elements of the work plan that require more 
investment. Much of that has to do with security, the creation 
of rapid response teams to go in once the infrastructure is hit 
to reduce the impact of the sabotage by rapidly returning it to 
service.
    I think there is a fairly detailed accounting of that in 
the CPA request that shows those elements which do aggregate to 
a good sum of money but there is a good reason for each of 
those. In fact, we were consulted throughout the development of 
this budget request.
    Mrs. Maloney. The Army Corps of Engineers Central said they 
were not. As I said, there were several items that appeared not 
to be involved in reconstruction. I mentioned them earlier, I 
will place them in writing.
    My final question is, will we get transparency before the 
vote? Will we get an accounting of the contracts? Senators and 
members of this panel and others have said they request the 
information and it is not given to them. I feel transparency 
means facts and figures and documents, not a statement, we are 
transparent.
    You have a tremendous challenge ahead of you. I would say 
peace in the whole region if we are successful in bringing a 
democracy there, but it has to be well-managed or you don't 
have the faith of the American people and you don't have the 
faith of the Iraqi people. It begins with documentation and 
management and so far we haven't gotten that.
    Mr. Shays. I thank the gentlelady.
    I am going to recognize myself and then we will let this 
panel get on its way.
    First, I want to say that I think you realize we could 
almost just ask one of you the questions. We have such a fine 
group of individuals that I apologize if we haven't utilized 
all your expertise. I think, Mr. Kerik, I could spend a day 
trying to understand what you encountered. I would like to have 
you give me a perspective because I believe you found yourself 
interacting with a lot of Iraqis. I want to know if you feel 
the comment made to me way back in April by Mohammed Abdul 
Hassan Inemkassa was still a problem today and that was, ``you 
don't know us and we don't know you.''
    One, do you think they are getting to know us? Do you think 
they are getting to know us in a right way, the Iraqis? Two, 
are we getting to know them? Is there interaction or are we 
finding ourselves in the palaces having to do our work not able 
to interact in a way that would be helpful? Maybe you could 
respond to that?
    Mr. Kerik. I can speak from the perspective of dealing with 
the police, dealing with customs and borders and a lot dealing 
in the local communities in and throughout Baghdad. I travel 
throughout Baghdad on a daily basis and when you listen to the 
press and they talk about lawlessness and looting and chaos in 
the streets, I am proud to say from my last probably 30 days, I 
just about ate dinner out every night in Baghdad at a 
restaurant or a hotel. The shops are open, the markets are open 
and it is not really what I have read about and what I have 
seen since I have been back.
    Do we know them and do they know us? We are getting to know 
them better, they are getting to know us much better. In 
dealing with the police, I think initially they were skeptical. 
I think history between us, they thought initially we were 
going to come in and would leave. I think as time has gone on, 
they have begun to trust us, they have learned to trust us and 
I have seen that with the police but I have also seen it a lot 
with the Iraqi people.
    That has helped us when it comes to information to fight 
the fedayeen and the Ba'ath Party. Initially, no one would come 
forward with information concerning terrorism, concerning 
attacks, concerning weapons. As time has gone on and we saw a 
major surge in information flow after the two sons of Saddam 
were killed. For every day that Saddam doesn't pop his head out 
of the ground and take over the country, that information flow 
is growing and is growing by the people in Iraq and it is 
growing internally in the police.
    The police today overwhelmingly want to bring back a new 
country. They are working extremely hard. The police in Baghdad 
are working on retraining their own people. They are extremely 
happy with their new equipment, with their new weapons. As you 
know, we had a difficult time initially getting uniforms, 
getting weapons. When we talk about contracts and contractors, 
we used as many Iraqis as possible but initially, we just 
couldn't get a lot of this stuff in Iraq with the local 
vendors, so we had to go where we had to go to get it done and 
get it done quick. It is moving along and it is moving along 
much better at a much faster rate than anyone would have 
imagined. As I said earlier, think this way; in 4 months we 
went from zero precincts or zero stations in Baghdad to 35. 
There is no way you could have done that anywhere in this 
entire country in 4 months. It just couldn't happen. We stood 
up 35 police stations, 400 cars, 3,000 radios and I can go on 
and on but that is a result of this relationship.
    I will share with you one last thing. It is rather 
frustrating to sit here and listen to a lot of the criticism 
based on press and media reports. I will share with you a 
comment that was made to me by the Senior Deputy Minister of 
Interior just a few days ago. I told him I was going to see the 
President on Friday and he said, ``please tell the President to 
stop the complaining. The people in the United States have to 
stop complaining, the politicians have to stop complaining. You 
are making friends of our enemies.'' I said, ``what do you mean 
by that? He said, ``the fedayeen and the Ba'athists, today they 
can watch television, they have satellite dishes, they can see 
things today they have never seen before. They see that 
criticism, they hear it. In their minds, they are winning. In 
their minds, them attacking our people, them attacking the 
police, them attacking the Coalition, they are winning, they 
are doing a good job. That criticism is hurting us.''
    Mr. Shays. I just want to say you said they are winning, 
that is what they think.
    Mr. Kerik. That is what they think.
    Mr. Shays. Based on what they see?
    Mr. Kerik. Based on what they see and I think it is hurting 
us.
    Mr. Shays. I would like to ask you, General, if you feel 
that our troops are getting the opportunity to interact with 
Iraqis or are they having to be very distant? I want to also 
ask you, I had so many Iraqis tell me that they did not like 
seeing Americans killed and it hurt them, but they said, why 
can't we stand guard over a hospital? Why does it have to be an 
American? What skill would prevent them from having that 
opportunity? If you could speak to both issues, the interaction 
of our troops and the guarding of places like hospitals.
    General Strock. Sir, perhaps the Secretary could talk more 
about the interaction of troops. Most of my attention was as a 
member of CPA and I was not out on the streets with the troops 
a lot but as I did have occasion, I thought it was a developing 
relationship and one that I think our troops are forming a bond 
with the Iraqi people. They know why they are there and they 
are serving the Iraqi people just like they are serving our 
people.
    We are in fact trying to transfer the responsibility for 
security of places like hospitals to the Iraqis by facility 
protection services by the police forces. That is an ongoing 
effort of ours to relieve our troops from that responsibility. 
That is very much happening.
    Mr. Secretary, perhaps you would like to comment?
    Secretary Brownlee. My experience is based on my visits 
there on two occasions and talking to all the soldiers I could 
and their commanders. Some of the frustrations they mention are 
that they do have contact with the Iraqi people and there may 
be an incident and they are out there with the Iraqi people and 
there may be 35 or 40 Iraqis coming to try to help them and 
pointing out areas where something might have happened or might 
happen but the press reports will go find one disgruntled Iraqi 
and that turns out to be the story. Our soldiers are even 
frustrated by that. They do have contact with them, they are 
out in the streets on a daily basis running patrols and doing 
the security things they do. Hopefully it will continue to grow 
and get even better.
    Mr. Shays. Before we end this panel, is there any comment 
any of you wants to put on the record before we get to our next 
panel? May I say parenthetically, the chairman of this 
committee is on the floor of the House now and wanted me to let 
you know that is why he is not here right now.
    Secretary Brownlee. You talked about turning things over to 
the Iraqis and of course all of our division commanders are 
busy and I think all of us see that as a way to replace troop 
strength there is to replace it with Iraqis.
    Mr. Shays. Thank you.
    I would conclude by saying to you that I have known 
Ambassador Bremer the entire time I have been in Congress and I 
am very proud of the work that he and his people are doing, 
very proud of what our military is doing and very grateful, 
Tom, that you are there to help. He is blessed to have you help 
him. You have a difficult job, we thank you. I am absolutely 
certain that Republicans and Democrats alike share that sense 
of gratitude to all of you. Thank you.
    We are going to get to our next panel. We have Mr. Alaa H. 
Haidari, an Iraqi-American from the chairman's district; Dr. 
Lamya Alarif, an Iraqi-American from the chairman's district as 
well; and Ms. Beate Sirota Gordon from the great district in 
Manhattan of Congresswoman Maloney; she is our Constitutional 
scholar.
    [Witnesses sworn.]
    Mr. Shays. It is an honor to have you here. I have been 
looking forward to this panel and we will start with Mr. Alaa 
Haidari. You will start with your testimony, sir.

  STATEMENTS OF ALAA H. HAIDARI, IRAQI-AMERICAN; BEATE SIROTA 
    GORDON, CONSTITUTIONAL SCHOLAR; AND LAMYA ALARIF, IRAQI-
                            AMERICAN

    Mr. Haidari. I would like to thank all of you for giving me 
the opportunity to speak to you about the situation in Iraq. 
First of all, I would like to say that ridding Iraq of Saddam 
Hussein and his regime was the best thing the United States 
could do for the Iraqi people, regardless of any controversies 
about how Saddam was removed from power. Second, this 
administration is putting forth a tremendous effort in 
rebuilding Iraq and establishing a normal life for the Iraqi 
people. In spite of this huge effort, we still have a difficult 
road ahead of us because we don't have a clear and 
comprehensive plan. Allow me to put out a few issues which will 
help us and can be accomplished in a 6-month period.
    First, the current governing council does not reflect the 
Iraqi population. Also, it does not have a representative for 
many Iraqi provinces which have more than 1 million people in 
each of them. So, we need to revise and enhance this current 
council structure.
    The second issue is the disbanding of the Iraqi Army. We 
must accept the fact that disbanding the Iraqi Army and police 
forces was a huge mistake. Police forces played a vital part in 
keeping law and order. Most of the soldiers and policemen were 
against Saddam Hussein. Bringing them back will allow the U.S. 
military to move the bases outside of the cities and this will 
keep U.S. soldiers out of harm's way.
    The third issue is the economic situation. The Iraqi 
economic situation today is horrendous. Power, drinking water, 
health care, education and infrastructure, almost everything 
has been destroyed and there are millions of unemployed Iraqis. 
Reconstruction and economic revival must be top priorities. I 
think it is necessary for the United States to initiate a 
Marshall Plan-style program with funds of $100 billion over the 
next 4 years. Much of this money should be financed by 
neighboring oil producer states such as Saudi Arabia, Kuwait, 
Qatar, and the Emirates. I am surprised that this has not 
happened yet. Also, we must encourage investment by American 
business with cooperation with OPEC and the Import/Export Bank.
    The fourth issue is ministry employees. Qualified Iraqi 
people are capable of managing their own affairs and we should 
let them do so. They are more knowledgeable than anyone else in 
the affairs of their own country. Ex-employees of Iraqi 
ministries should definitely be rehired and the U.S. 
administration can oversee their work.
    The fifth issue is the local governments. Each of the 18 
provinces must choose a Governor and a governing council. This 
will build confidence and a better relationship between the 
U.S. administration and different groups in Iraq. It will also 
relieve some of the burden of the U.S. administration in 
Baghdad.
    In summary, there are five things that must be done in 
Iraq. One, revise and enhance the Governing Council; two, 
rehire the Iraqi soldiers and policemen who were not a part of 
the Saddam regime; three, bring back Iraqi employees of the 
ministries except those who were loyal to Saddam Hussein; four, 
organize the administration of all 18 Iraqi provinces; and 
fifth, revive the Iraqi economy with a Marshall-style plan by 
using money from neighboring oil producing states for Iraq. 
These countries have the money and it is for their well being 
and for the stability of the region. Thank you very much for 
the time. I would be happy to answer any of your questions.
    [The prepared statement of Mr. Haidari follows:]

    [GRAPHIC] [TIFF OMITTED] T1303.037
    
    [GRAPHIC] [TIFF OMITTED] T1303.038
    
    [GRAPHIC] [TIFF OMITTED] T1303.039
    
    [GRAPHIC] [TIFF OMITTED] T1303.040
    
    [GRAPHIC] [TIFF OMITTED] T1303.041
    
    [GRAPHIC] [TIFF OMITTED] T1303.042
    
    [GRAPHIC] [TIFF OMITTED] T1303.043
    
    Mr. Shays. Thank you very much.
    Our next witness will be introduced by her Representative.
    Mrs. Maloney. Thank you so much and I want to thank 
Chairman Davis and you, Acting Chairman Shays, for including in 
our panel one of the most extraordinary women I would say in 
the world although she is often non-recognized, Beate Gordon. 
Her story is groundbreaking and important because she single-
handedly created civil rights for Japanese women. I hope we 
will be able to create civil rights for the Iraqi women and the 
Afghani women.
    She was born in Vienna, grew up in Tokyo and became fluent 
in the Japanese language. Just before World War II she came to 
America to attend Mills College. Because of her fluency in 
Japanese, she was hired by the Foreign Broadcast Intelligence 
Service during the war to listen to and interpret radio 
broadcasts from Japan. At that time, she was 1 of 66 Caucasians 
who could speak Japanese. This is a thing you raised, Mr. 
Chairman, many times in Iraq that we need more people who speak 
Arabic, not only here in the United States but in Iraq working 
with the Iraqi people and with our people there. She became the 
American counterpart to the notorious Tokyo Rose, writing radio 
scripts each day.
    Following the war she returned to Japan and worked for the 
Supreme Commander, General MacArthur. She became one of the 
drafters of the 1947 Japanese Constitution, the only woman at 
the table, and she wrote a book about her experiences. She was 
assigned to draft the section of the constitution relating to 
women's rights. At the time, Japanese women had no say in 
marriage, divorce, education, property, or inheritance rights. 
The provisions she drafted gave Japanese women fundamental 
constitutional rights that literally changed their lives and 
the society. She ultimately worked for the Japan Society and 
the Asian Society in New York and I believe in her presence 
today she will have very important insights because of her 
experience in Japan. She originally drafted 25 provisions 
guaranteeing civil and social welfare rights for women. Only 
one of these provisions made it into the constitution. She was 
told the rest would be adopted by the government, the 
bureaucrats. Fifty years later, not one of her other provisions 
made it into law. Her experience shows that if women's rights 
are not expressly spelled out in the constitution now, the 
civil authority in Iraq cannot be counted on to adopt these 
rights later in legislation.
    I thank her for the role she played in guaranteeing rights 
for women in Japan and I earnestly hope that the drafters will 
be as successful as she was as they draft the new constitution 
for human rights for all people in Iraq. Thank you for your 
life service, Ms. Gordon.
    Mr. Shays. That was a lovely introduction. My only regret 
is that the chairman is not here to introduce our other two 
witnesses. It is wonderful to have you here. You have the 
floor.
    Ms. Gordon. Thank you so much, Representative Maloney, for 
your wonderful words. I am honored to have been invited by you 
to talk about my work as a drafter of the women's rights of the 
Japanese Constitution, and how that might apply to Iraq. In the 
last 4 years, I have testified about these rights in both 
Houses of the Japanese Diet.
    Since Japanese women had no rights at all under the 
constitution before World War II, I drafted 25 separate 
provisions. Only one survived, as Representative Maloney said, 
and I will read that to you now. ``Marriage shall be based only 
on the mutual consent of both sexes and it shall be maintained 
through mutual cooperation with equal rights of husband and 
wife as a basis. With regard to choice of spouse, property 
rights, inheritance, choice of domicile, divorce, and other 
matters pertaining to marriage and the family, laws shall be 
created from the standpoint of individual dignity and the 
essential equality of the sexes.'' I also collaborated on 
Article XIV which in part reads, ``All the people are equal 
under the law and there shall be no discrimination in 
political, economic or social relations because of race, creed, 
sex, social status or family origin.''
    In 1946, I was working for the Government Section of 
General Headquarters in Tokyo. On February 4, 1946, General 
Whitney, called in about 20 of his staff members for a top 
secret meeting. He said, ``You are now a constitutional 
assembly and by order of General MacArthur you will draft the 
new constitution of Japan.'' He also said the task had to be 
accomplished in 7 days.
    I was in the Political Affairs Division which was ordered 
to write the chapter on civil rights. My division chief 
assigned the article of Women's Rights to me because I was a 
woman. I immediately researched many of the world's then 
existing constitutions and compiled detailed women's rights 
articles including specific social welfare rights for women and 
children. When I presented my draft to the Chief of the 
Steering Committee, Colonel Kades, he said, ``Beate, you have 
given the women more rights than are in the U.S. 
Constitution.'' I replied, ``That is not difficult since the 
U.S. Constitution does not even mention the word woman.'' 
Eventually, the social welfare rights in my draft were 
eliminated because the Steering Committee felt they were not 
appropriate for a constitution but belonged in the civil code. 
I argued that the Japanese bureaucrats would never write such 
laws into the civil code. Colonel Kades said, ``Don't worry, we 
will be here for a long time and we will see to it that they 
get in.'' Unfortunately, this did not turn out to be so. Fifty-
six years after the constitution was promulgated, social 
welfare rights for women have not entered the Japanese civil 
code.
    When I lecture in Japan, I am always told, ``If only your 
social welfare rights had been in the constitution, how much 
struggling we would have avoided.'' It took 1\1/2\ years 
between the drafting of the constitution and its adoption. Now, 
Japanese women are exercising the constitutional rights they 
received as a result of American participation in preparing the 
post-war constitution. Japanese women participate in central 
and local governments, as legislative representatives, mayors 
and Governors. Women have held positions as Speaker of the 
House, chairman of a political party and Supreme Court justice. 
Women are also prominent in the media as reporters, talk show 
hosts, documentary filmmakers and editors. Women practice law. 
One woman is even the CEO of the largest publishing firm in 
Japan. The one field where Japanese women have not made enough 
progress is in the corporate world but they are trying very 
hard.
    Although conditions in Iraq are quite different from the 
conditions in Japan in 1946, certain lessons can be learned. 
Women who have been suppressed all over the world for many 
centuries must be made equal with men in any real democracy. 
Women everywhere are peace loving, interested in social issues, 
in education for their children and in living a useful life. 
Women all over the world are demanding equality. I think that 
Japanese women who have gone through the miseries of war, the 
deprivation of housing and food, the reconstruction of 
devastated cities and the institution of a new constitution are 
in a unique position to serve as models and advisors to the 
women in Iraq. I am sure they will urge the women of Iraq to 
make sure their new constitution includes not only fundamental 
rights but also social welfare rights. May the United States 
help them in this noble cause as it did so successfully in 
Japan.
    Thank you very much.
    [The prepared statement of Ms. Gordon follows:]

    [GRAPHIC] [TIFF OMITTED] T1303.044
    
    [GRAPHIC] [TIFF OMITTED] T1303.045
    
    [GRAPHIC] [TIFF OMITTED] T1303.046
    
    [GRAPHIC] [TIFF OMITTED] T1303.047
    
    [GRAPHIC] [TIFF OMITTED] T1303.048
    
    Mr. Shays. Thank you very much, Ms. Gordon. As I look at 
you, I think you must be an imposter to tell me that somehow 
you were involved in legislation in the 1940's.
    Dr. Alarif.
    Ms. Alarif. Thank you. I will read my summary in the 
interest of brevity.
    I wish to thank the office of Congressman Davis for giving 
me the opportunity to appear before this distinguished 
committee to share some observations and reflections on the 
events of post-war Iraq from the perspective of an American who 
was born in Iraq. The mere fact that I am appearing before you 
in this public forum is a sign of significant accomplishment 
directly resulting from the fall of Saddam Hussein. Prior to 
this time, I would have had serious concerns for the safety of 
my family had I taken such a public position on any matter 
relating to Iraq.
    Many questions were posed by Congressman Maloney and by 
Congressman Shays on some things that are happening in Iraq. I 
hope some of them might be answered during my testimony. I hope 
you will forgive me for diverting the conversation into a 
little bit more of a historical perspective of the social and 
forces that have shaped the political destiny of Iraq and they 
continue to do so. These are contradictory, religious, ethnic 
and social factors which can be grouped into four groups.
    One we are all very familiar with, the religious and ethnic 
diversities. The second is the traditional tribal conservative 
value system. This has played and continues to play a very 
divisive influence on Iraqi politics. The third is the ever 
growing middle class which was the unifying factor among all 
these political factions and finally, there is the working 
classes. A combination of the various wars that were initiated 
by Saddam and the crippling effects of the embargo effectively 
gave Saddam Hussein a free hand in eliminating any and all 
opposition to his party and his politics. Therefore, the Iraqi 
people could not overthrow him and needed the help of outside 
power like the United States and its allies.
    My humble observations as to the situation in Iraq in 
winning the hearts and minds of the Iraqi people are as 
follows. I agree with my esteemed colleague and several of the 
members of the administration that the reconstitution of the 
Iraqi army should reduce the need for more American troops. The 
use of a reconstituted Iraqi military can serve multiple 
purposes. One is to relieve the CPA troops from various 
security details; two is to have additional military support 
without having to ask other countries for it; three is to put 
an Iraqi face on the various operations among the civilian 
population; and fourth is to provide some gainful employment 
for those soldiers who have been laid off. I would say it would 
be anyone below the rank of major, a lower ranking officer.
    We are talking about winning the hearts and minds. Wherever 
possible, alternative methods should be sought to reduce the 
direct contact between the Coalition military forces and the 
Iraqi civilian population. Since this is a long term 
association, it is better to set a pattern of peaceful 
coexistence such as removing some of the intimidating hardware, 
and that can happen over time, slowly, so as to restore normal 
civilian life.
    In traditional tribal areas, much of the violence, I feel, 
is caused by cultural misunderstanding of the conservative 
norms. I would put a special effort into friendly persuasion 
and cultural understanding and dialog.
    The final point of my presentation touches upon what my 
colleague said earlier and that is, there has been an undue 
emphasis on quotas and ethnic and sectarian differences in 
Iraq. We all know that Saddam used those differences 
effectively. Therefore, we should try to avoid that. Most Iraqi 
families I wish to emphasize are ethnically and religiously 
mixed. There are millions of Sunnis who have never supported 
Saddam; they are the silent majority. I don't like to mention 
Mr. Hussein's name too much but he feared the Sunni leaders 
because they posed the most direct threat to his rule. Other 
than his immediate tribe, 90 percent I would say of the Sunnis 
were oppressed like every other sector in that country. They 
did not support his regime. This group included or happened to 
include the middle class technocrats, the bureaucrats and those 
who have been the engine driving the country for years. 
Therefore, we need to be more inclusive of that group and open 
dialog with them.
    At this juncture, I will add a few factors that might shed 
some light on your questions, Congresswoman Maloney. A law was 
promulgated and established in 1959 after the first Iraqi 
Republic giving women equal rights, social and political rights 
with men. That law was promptly abolished by the Ba'athist 
regime. During that period, women enjoyed equal inheritance, 
rights in divorce and so forth. That law was enjoyed for 3\1/2\ 
years. After the Ba'athist regime, it was abolished. You can 
imagine what an uproar that created among the religious clerics 
but this was a secular government, the first Iraqi Republic.
    There was an unsuccessful attempt by the first Iraqi 
Republic to establish democracy, so a constitution, a secular 
permanent constitution was written. It took a year to write it, 
by the minds of the Justice Department at that time. It was 
finished after about a year by 1963 but unfortunately was 
abolished and not adopted when the Ba'athist coup came, so that 
was out too. Also just something everyone should know or 
perhaps you are aware that Iraqis have always had free access 
to education, medical care and have no income tax, although all 
of them do pay social security.
    In conclusion, I have tried to condense a lot of 
information with a historical perspective. However, I have 
provided a bit more detail in my written testimony. I believe 
that Iraq has a good chance of being helped through its 
rebuilding process. I am optimistic for the future because all 
the ingredients are now in place for success.
    Thank you for your time.
    [The prepared statement of Ms. Alarif follows:]

    [GRAPHIC] [TIFF OMITTED] T1303.049
    
    [GRAPHIC] [TIFF OMITTED] T1303.050
    
    [GRAPHIC] [TIFF OMITTED] T1303.051
    
    [GRAPHIC] [TIFF OMITTED] T1303.052
    
    [GRAPHIC] [TIFF OMITTED] T1303.053
    
    Chairman Tom Davis. Thank you very much. Thank you all.
    I apologize for missing the first three speakers, I was on 
the floor managing a bill that came out of the committee--the 
chairman had to do that.
    I am going to start the questioning with Ms. Blackburn. 
Thank you very much.
    Ms. Blackburn. Thank you, Mr. Chairman. I want to say thank 
you to each of you for taking your time to come and to talk 
with us and be before us today, looking at Iraq and the 
reconstruction efforts and your moving forward and having a 
healthy, productive, viable country is so very, very important 
to us.
    Dr. Alarif, I enjoyed your comments very much and 
appreciate those. I have a constituent who is an Iraqi-American 
physician and he is currently back in Iraq and working with the 
Coalition partners in rebuilding the medical training 
facilities and the programs that will train nurses and doctors. 
Some of the correspondence that I have had with him is that if 
anyone doubts that we have made an impression, they need to be 
here. If anyone doubts that Saddam Hussein had or used or 
exposed his people to chemical weapons, they need to be here 
and see some of the children that are suffering from leukemia 
and other diseases. I think he holds the position that many of 
us do that Saddam Hussein himself may have been the biggest 
weapon of mass destruction. I would like you to talk just 
another brief moment if you will about the medical care 
delivery systems and how quickly you see all of that coming 
back up to what you would consider to be par.
    Ms. Alarif. Please forgive me if I keep looking at the 
historical perspective because I think there was much achieved 
in Iraq in the 1960's in the pre-Saddam era. Therefore, I don't 
know how bad it is right now but I can tell you how good it was 
before. Iraq was considered the most advanced Middle Eastern 
country in terms of medical care. It had the best medical 
schools, had the best doctors, had enough doctors and Ph.D.s 
per capita than some of the western countries who had more per 
capita. Of course all of that I imagine, thank God I had not 
seen the mess he had created. So I think the basis is there. 
The Iraqi people are highly sophisticated and educated. I just 
don't see those ones on the street. I just see some young 
rabble rousers but most of the Iraqi people are easier to work 
with than any other country in the Middle East. You have an 
excellent cadre of people, of scientists, of medical 
professionals but they just haven't had the support they should 
have had from Saddam.
    As far as the leukemia, I have heard that. I have not seen 
it but I have heard that from our relatives and it is 
frightening. I don't know what he was doing there. Nobody knows 
what he was doing there and what he did to the population but 
we do know there is an increased frequency of susceptibility to 
leukemia and other malignancies that were not there, especially 
among children.
    Ms. Blackburn. Thank you.
    I certainly appreciated the work this constituent has 
relayed he is doing. As I said, he is Iraqi by birth, an Iraqi-
trained physician, left there in 1991, came to the United 
States, received his citizenship, has worked and lived in my 
district, has a wonderful family and now he is back there to 
help his people and to share the excitement that I know all of 
you share and have with the opportunities for freedom.
    That leads to my next question. Ms. Gordon, I have been so 
intrigued with what I see as a fabulous opportunity for the 
Iraqi people as they move forward with writing their 
constitution. I appreciated your comments on that. To me it is 
a little bit miraculous to look at the fact that we are 160 
days into this process and it seems they are moving forward 
really rather quickly, with a governing council in place, with 
the 25 heads of different ministries in place. I would like to 
see if you could speak for just a moment as to what you think 
the timeframe will be for completing a constitution and then 
moving that to ratification by the people and moving from that 
to election of their officers. Do you think we are looking at a 
5-year period, a 3-year period or what would be your thoughts 
on that?
    Ms. Gordon. In Japan, it took a year and a half from the 
beginning to the end but I think it was a much easier task. I 
have a feeling that in Iraq it will probably take longer.
    Ms. Blackburn. Dr. Alarif, do you have some comment you 
would like to share with me?
    Ms. Alarif. I agree with her in the fact that, academically 
speaking, that is appropriate. But in reality, as I said, we 
have had maybe two constitutions. One was the monarchy 
constitution and then it was redone as I said earlier by the 
first Iraqi Republic, and this was done by professionals, the 
Justice Department, Court of Appeals, all the judges. This was 
a functioning government with highly educated people. They 
wrote a secular constitution that could serve as a base for 
perhaps the new constitution. I don't know where that 
constitution is, I am sure there are some copies somewhere that 
the Ba'athists have hidden in Iraq, but that addressed a lot of 
the questions at that time. It could be updated to the present 
because it was highly secular and it was opposed by the clerics 
and the religious groups, so it must have contained something 
quite good for women.
    Ms. Blackburn. Thank you, Dr. Alarif.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Mrs. Maloney.
    Mrs. Maloney. Thank you so much and I thank all of the 
panelists. I want to publicly thank you, Mr. Chairman, for 
including Ms. Beate Gordon at my request to testify. She has 
brought important insights. Dr. Alarif, your historical 
perspective is tremendously helpful and I would really like to 
organize a meeting with the Women's Caucus for you to come and 
share your insights. I think it would really be very, very 
important.
    I can't underscore, particularly after reading Ms. Gordon's 
book, how important it is to get these rights in the 
constitution because even in America you can't get rights into 
the Constitution; it is very hard. The document is tremendously 
important and I was very concerned about a news report, and I 
am going to find that article and send it to you, about a 
Gallup poll that was taken in Iraq which I found disturbing. It 
said that the Iraqis didn't want the women to have as much 
freedom as they had under Saddam Hussein. I found that hard to 
believe but I am very concerned about the constitution because 
it would be a tremendous travesty if the women do not, at the 
very least, hold on to the rights they had in the constitutions 
that were written in 1963 and whatever you said, 1958. When I 
was there, I met many educated doctors, teachers--women--who 
were very involved in rebuilding their country and actually 
very much a part of the fabric of it.
    I just want to know, do you think there will be difficulty 
in drafting the constitution? I understand there will be a 
number of women on the constitutional committee, getting these 
rights in the constitution--the right to vote, the right for 
medical care, the right for education, the rights that Ms. 
Gordon outlined in her testimony? Do you think there will be 
any problem?
    Ms. Alarif. It is a little different. We are addressing two 
different things. I will explain myself in 1 second very 
briefly. In Iraq, in that culture, especially in Iraq, women 
have always had rights guaranteed under whatever things but 
they were not all specifically equal. They had the right of 
inheritance. A woman my age--I am not young, but my mother is 
in her late 80's and was a teacher--her classmates were 
doctors, judges. Show me what country that at 85, has these 
people. So they had that right but they did not have social 
rights such as the divorce. These have to do with religious 
sharia--divorce, inheritance, we have one for women, two for 
men, it is guaranteed. You get an inheritance but it is not 
equal. Therefore, I see only a problem if the religious clerics 
start objecting to the fact that this is against this and so 
forth. It has to be a completely secular, social welfare for 
women.
    As far as rights are concerned, I am appalled to be honest 
with you as to the condition of women under his regime. I don't 
want to mention his name continuously, under the old regime of 
Saddam Hussein versus the first Iraqi Republic, even the second 
Iraqi Republic. By the way, we are going to be on the fifth 
Iraqi Republic now. In the 1960's and 1970's, women had a lot 
more rights and even in the 1950's, we began to have these 
rights only to be reversed by Saddam by adopting this so-called 
phoney religious overtone which he never believed in anyway but 
it served its political purpose. So he abolished that.
    Mrs. Maloney. I have a few seconds left. In this book by 
John Dower, ``Embracing Defeat,'' which really goes through the 
Japanese experience in writing their constitution and building 
their country, Ms. Gordon you are treated very positively in 
this book with your role in the constitution. They talk about a 
peace clause that they placed in the constitution and this was 
about the defense of the country. I would like Ms. Gordon to 
respond to it and also Dr. Alarif, you were saying we need to 
employ and build the army, you said to protect the people, to 
protect the streets and so forth. In our structure, that would 
be the police. The police protect the government building, the 
police protect the people. Why would you want the army instead 
of the police to have this function because the army sometimes 
has a vision of invading others or whatever. Ms. Gordon, could 
you briefly talk about the peace clause and its importance?
    Ms. Gordon. It is a very short paragraph in chapter two of 
the constitution of Japan. It is called ``Renunciation of 
War'': ``Aspiring sincerely to an international peace based on 
justice and order, the Japanese people forever renounce war as 
a sovereign right of the Nation and the threat or use of force 
as means of settling international disputes. In order to 
accomplish the aim of the preceding paragraph, land, sea and 
air forces as well as other war potential will never be 
maintained. The right of the belligerence of the state will not 
be recognized.''
    It is true that the Japanese have built a defense force 
because it doesn't say here that you can't defend yourself. It 
doesn't specifically say you can defend yourself but it doesn't 
say that you can't. So they have built a defense force. 
However, in these 56 years since the constitution has been 
active, no Japanese soldier has been sent outside of Japan, no 
Japanese soldier has killed another soldier, neither has any 
Japanese soldier been killed. Not many countries can say that. 
Costa Rica also has a constitution in which an army is not 
permitted. They don't have an aggressive army. They also don't 
have a defensive army. I think that is one of the great things 
about this constitution, that it leads to peace if other 
countries in the world would also have such clauses that are 
against war. The interesting thing is that it was the women in 
Japan who mostly supported this clause of peace and they have 
kept on being behind it even though the government right now is 
trying to change the constitution, especially this Article IX. 
They want to participate in peacekeeping forces for the U.N. 
and they want to be ``a normal nation.'' It is very sad to 
think that the ability to make war is normal. I don't know what 
will happen but in the meantime, I think 65 percent of the 
women have come out against any amendments to the constitution, 
especially not to the renunciation of war. I think very few 
people know about this. I am so glad Representative Maloney 
asked about it because very few people in general in the United 
States know about this clause. I think it is something to think 
about.
    Ms. Alarif. Do you want me to address your question?
    Chairman Tom Davis. Sure, go ahead.
    Ms. Alarif. The reason I have given in my written testimony 
a brief history of the Iraqi Army is it never belonged to 
Saddam. He did not organize the Iraqi Army. The Iraqi Army was 
organized in 1921 by a British mandate. It became the most 
highly respected and educated group of people that came in 
there; its history is very rich. I don't know what Saddam did 
to the army but I don't think most of them, the rank and file, 
were loyal to him.
    Mrs. Maloney. My specific question was why the army and not 
the police force for protection of people which in our 
structure. As you know, the police protect our people, protect 
our buildings. The army is the army.
    Ms. Alarif. Well, because of the historical role that the 
army played versus the police. Police in Iraq--psychologically, 
the Iraqis don't like their police because they were always 
used as spies, as intelligence agents and it is a psychological 
turnoff. So when they see a policeman, there is no respect. But 
the army has always been on the side of the people, so they 
always liked to see an army man. They trust them more.
    Mrs. Maloney. Thank you.
    Chairman Tom Davis. Thank you very much.
    Mr. Haidari, can you tell us how we can get the Shias to 
help us with the old Ba'athist regime, turning in these people 
and breaking their underground network?
    Mr. Haidari. I think to fix the situation in Iraq we need 
to talk about Iraqi total people, not one group. If we talk 
about one group, that will be very dangerous for us in the 
future in Iraq. As I see it, the Governing Council, we need to 
extend it to enhance it, put people who have mandates from 
their groups to make a big influence. I will give you a simple 
example. In the Sunni Triangle, we have five new members in the 
Iraqi Sunni, a five-member Sunni in the Iraq Council. Where is 
there a role in the Sunni Triangle? There is no role. We didn't 
find it. How to convince the area. I can't see anything. You 
can't see anything. We need people who make influence in their 
roles not only Shiite or only Sunni, no, that is not enough. We 
have five Sunni now in the Council. There is no influence in 
the Sunni area. We have 13 Shiite, some of them have some 
influence but also there are a lot of Shiite who have good 
influence outside the Council. These people are not against the 
United States. The people who are not in that Council, are not 
against the United States but we need to open nice dialog with 
them.
    About the Army, Shiite and Kurd in general against the army 
because they believed Army is Sunni organization. From 1921 
until 1963, you can't find high rank in the Iraqi Army from 
Kurd, from Iraqi Turk, from Arabic Sunni but it is very, very 
few people Shiite with high rank. From 1963 until 2003, the 
most of the high ranks in the Iraqi military, the Iraqi Army 
are Arabic Sunni. So now when we want to rebuild the Iraqi Army 
to help United States, we need at last 300,000 Iraqi soldiers, 
soldiers, all of them, against Saddam Hussein. I will not say 
most, I say all of them. That means it is not right to disband 
the army, all the soldiers against Saddam Hussein. High ranks 
avoided them but lower ranks keep them to help us. In Iraq 
there was school and high school, high college for officers and 
high officers. This school started in 1930's, so we need to 
depend also on the army.
    Chairman Tom Davis. Let me ask everybody, what can we do to 
try to get more Iraqis maybe to go back and help us with 
translations and intelligence gathering? We actually have a 
shortage of people that can do that kind of communication right 
now. We would have to have proper screening. Is there anything 
we can do, any signals we can send to American Iraqis that may 
want to help us in that? Let me start with Dr. Alarif.
    Ms. Alarif. I will comment on one thing he said because I 
basically agree with Mr. Haidari, except I will just correct 
you once and that is that General Qasim was a Shiite.
    We basically are in agreement about the Iraqi Army and I 
did suggest earlier that we do use the lower ranking officers, 
so that is an agreement. To galvanize the Iraqi-Americans, what 
you need are some basically on the ground going with the 
soldiers, translating. So you can't have Ph.D.s doing that for 
you. You perhaps need to look at where the Iraqis are 
concentrated, maybe around the Detroit area, I don't know where 
they are, northern Virginia, put out some kind of a feeler that 
we would like them to participate in this for ``x'' amount of 
time and you may be surprised. But they do have to go through 
the screening mechanism and all that. I am sure in your 
district, for example, in northern Virginia, there are a lot of 
Arabs and Iraqis, but mostly we need Iraqis.
    Chairman Tom Davis. The Governor of one of the provinces 
over there who was just elected had been in the PTA with me at 
Belvedere Elementary School. He had gone back to Iraq and was 
elected Governor of his province. Mrs. Maloney was there with 
me when we had a reunion. We are seeing some of that, but I 
think more of that would be helpful. When we talked to military 
leaders, they thought that would be helpful as well.
    Ms. Alarif. Absolutely.
    Chairman Tom Davis. A lot of people came here because of 
Saddam and the fact that they were being oppressed. We could 
use their help. So we need to figure a way to do our best 
recruitment on that. I think that can help our cause.
    Ms. Alarif. Absolutely.
    Chairman Tom Davis. Ms. Gordon.
    Ms. Gordon. May I comment on what Mr. Haidari said?
    Chairman Tom Davis. Of course. Please.
    Ms. Gordon. Because in Japan, I think General MacArthur had 
very much the same idea of using the Japanese in various phases 
of the society and what we had was a political purge. We also 
had an economic purge. It was a little bit like the 
``denazification'' program in Germany. As you said, the higher-
ups in the army maybe should not be used but the people lower 
down. That is exactly what we did in general; we had lists of 
who had been in what kind of militaristic group, who had been 
an ultra, ultra conservative, etc., and the Japanese Government 
provided that for us. If anybody was going to be elected to 
parliament or a high official in the army or whatever, they 
would have to be scrutinized according to that list that we and 
the Japanese Government together had formed. So there were many 
people later on who were brought back into government or 
brought into the army who had not been on the correct side but 
they were on a lower level. They did not have the power of the 
higher level and it worked very well in Japan.
    Chairman Tom Davis. Let me ask, it seems that much of the 
Ba'ath Party, instead of fighting us in the north, took off 
their uniforms and went back into the population. Their 
strategy seems to be to become terrorists, take out as many 
Americans or whoever else they can to get publicity and 
hopefully Americans will dissipate, America will give up, go 
home and they can come back into power. It seems to me that is 
their strategy. They are not winning strategic victories by 
what they are doing but they are hopeful they can have an 
effect back here and discourage us from pulling out early and 
they have a shot to come back into power. What is your 
analysis? When I say that, is that a fair analysis?
    Ms. Alarif. You know, the Ba'athists have now had two shots 
at Iraq and they've messed it up both times. This last time was 
a total disaster for the people. After what the Iraqis have 
seen right now, I think we are making too much of an issue of 
these people; I think they are just going to die a natural 
death.
    Chairman Tom Davis. But the problem is that is where the 
disturbances are. If you didn't have that, it would be a much 
different situation.
    Ms. Alarif. I understand, but if you look at Iraq's 
history, there have been several revolutions. Whenever there is 
a new revolution, and let us assume this was like a revolution 
but from the outside, it takes time to purge the old regime. So 
La Regime Marcienne has to be gone but you can't kill 
everybody, so eventually, once the leaders are gone and for me, 
for all intents and purposes right now, I see just discontented 
people who are without work and losing power. There are not 
that many of them. They should be rounded up at some point and 
isolated. I think with the passage of time, I don't think 
really they're lethal. They are lethal to the persons who get 
killed but they are not that lethal in terms of numbers, let us 
put it this way. During revolutions, as I said in the past, 
there have been more killings.
    Chairman Tom Davis. I understand, but from an American 
perspective, it is lethal. If you remember what one sniper did 
to the Washington area last year, here you have literally 1,000 
snipers sitting around and it is having a very chilly effect on 
Americans' perception of this war. We have to take them out as 
quickly as we can, and we can't do it without cooperation from 
the Iraqi people.
    Ms. Alarif. I basically stated here how you can get the 
cooperation of the Iraqis--by including them all, by getting 
cultural understanding. They come around, they really do come 
around. I think they are so tired of those wars and Saddam and 
his problems and they need to live a normal life. I think by 
inclusiveness and making life more normal for the civilian 
population, you may be seeing it now, I think. I don't know. I 
haven't been to Iraq but I think things are a lot better now 
than they were before, aren't they?
    Chairman Tom Davis. Right.
    Ms. Alarif. So perhaps.
    Chairman Tom Davis. Mr. Haidari.
    Mr. Haidari. I believe there are two ways to eliminate 
Saddam's party. First, we need to open investigation. We will 
not know Saddam's loyal followers, about 10,000, not more. We 
need to depend on the Iraqi people to know them. How? By 
investigation. Let the Iraqi people come to this kind of office 
and give us their names, give us their history and then we can 
find them or Iraqi people will help us to find them; this is 
one way.
    Another way, we want to build a good relationship with the 
Iraqi people. Iraqi people should be our eyes in all areas. If 
we can build a good relationship, we can eliminate Saddam and 
his party. Until now we didn't build that well. I give you the 
best example. Shiite suffered from Saddam a lot, massacres the 
best example, and until now they don't help us well. They are 
watching the situation. We need to deal with them to attract 
them to our side. If we do that, we eliminate Ba'ath. Ba'ath is 
not a problem, Ba'ath is a small group, I know them. I don't 
read about them in book, I know them. We can eliminate them 
very easily but we need to depend on Iraqi people. When? How? 
This is the question.
    Chairman Tom Davis. Thank you very much.
    Mr. Janklow.
    Mr. Janklow. Thank you, Mr. Chairman.
    Ms. Gordon, if I could ask, when did the occupation by the 
Allies end in Japan? Do you remember?
    Ms. Gordon. When did it?
    Mr. Janklow. When did the occupation by the Allies end in 
Japan?
    Ms. Gordon. As you know it started in 1945 and it ended in 
1952.
    Mr. Janklow. So it was really 7 years after the surrender 
of the Japanese regime that finally our soldiers left Japan as 
an occupying force?
    Ms. Gordon. Right.
    Mr. Janklow. I lived in Germany in 1948, 1949 and 1950 and 
my father was part of the army of occupation in Germany. The 
point I am making is, we become pretty frustrated in America 
when we haven't solved all these problems in 6 months after the 
invasion of Iraq when in reality, it takes a while to write a 
constitution, assemble a provisional government, unless we are 
going to write it for them. We can write a constitution for 
people but if they are going to write a constitution, it takes 
a while. Then they have to go through a process of debate--it 
isn't like ours gets changed very often after an awful lot of 
debate and discussion--and then they get around to elections. 
The point I am trying to make is, these things take time; Iraq 
wasn't just waiting there to throw off the yoke and rise up and 
do all of these functions.
    Mr. Haidari, let me ask you, as I read your resume, you 
were a member of the Ba'athist Party. As a matter of fact, you 
were part of the regional command wing at one time. So when you 
speak about the Ba'ath Party, you obviously speak from very 
personal knowledge, am I correct?
    Mr. Haidari. Yes.
    Mr. Janklow. When did you decide you weren't a member of 
the Ba'ath Party, that you no longer believed in their ideals 
or goals? While you are thinking, go ahead, Ms. Alarif. Do you 
have a response to that?
    Ms. Alarif. I have never been a member of the Ba'ath Party.
    Mr. Janklow. I was talking to Mr. Haidari.
    Mr. Haidari. I was a friend for Ba'ath in 1958.
    Mr. Janklow. It says in your resume, ``In 1962, I became a 
member of the Regional Command Wing of the Ba'ath Party.''
    Mr. Haidari. Yes. In 1959, we left Ba'ath Party as original 
member but in 1962, I was in the top of the responsibility.
    Mr. Janklow. If I could ask you two gentlemen and also the 
lady, the three of you of Iraqi heritage, are we doing anything 
right in Iraq? Is our country doing anything right, in your 
opinion? Yes?
    Ms. Alarif. Yes, many things right.
    Mr. Janklow. Could you elaborate a little, please?
    Ms. Alarif. First of all, as I said earlier, the fact that 
Iraq is actually for the first time in its life--and they have 
been trying for 50 years now to be free--they are free. The 
Iraqis are free. As I said earlier, I am a testament when I am 
talking. I have never done this in my entire life. I have been 
in the States since 1957 and I have never done this, my family 
would have been shot.
    Second, Iraq has longed to be a modern Iraq. It is the 
cradle of civilization but it has remained in the dark ages. It 
has not come into the industrial age. It has longed to belong 
to the 21st century and America is bringing it to the 21st 
century.
    Mr. Janklow. Mr. Haidari.
    Mr. Haidari. The most important thing we did in Iraq, we 
have rid Iraq of Saddam Hussein.
    Mr. Janklow. Are we doing anything else?
    Mr. Haidari. This is the most important thing. How can we 
invest this truth? We have good balance in Iraq.
    Mr. Janklow. If I can personalize this for a moment, have 
you gone back to Iraq since the war has been over?
    Mr. Haidari. Yes. I went in June. I stayed there 3 nights, 
4 nights and came back.
    Mr. Janklow. Do you consult with our Government on what 
they should be doing?
    Mr. Haidari. I have a long talk with our Government people. 
I talk with them about many things but now I have been talking 
for 2 years.
    Mr. Janklow. How long do you think it should take to write 
a new constitution for Iraq?
    Mr. Haidari. A new constitution? First, how will we do the 
constitution? Not only the constitution, now I think we are not 
in correct way to put this constitution. We appoint people for 
that and Iraqi people are not support this direction. Some of 
them support, others don't support.
    Mr. Janklow. My time is up but I notice from your testimony 
that you do say the Iraqi people don't support the provisional 
council that has been appointed. How should we select one and 
how long should it take to select the appropriate council to 
help draft the constitution for Iraq? I understand you suggest 
who should be included but how should they be selected and how 
long should that take?
    Mr. Haidari. It doesn't need more than 6 months, I believe, 
enough to make everything stable in Iraq, 6 months, not more. I 
don't want to say to cancel it, extend it, enhance it. We can 
choose a lot of people to make this council stronger, make good 
influence on Iraqi people.
    Mr. Janklow. In other words, the basic council is OK, it 
needs to be enlarged?
    Mr. Haidari. I would not say OK, I said some of the members 
are OK, some of them are not OK from point of view of Iraqi 
people. Some of them are OK, some of them are not OK.
    Mr. Janklow. Isn't that the way democracy works, some are 
OK, some are not OK?
    Mr. Haidari. When you want to choose, especially in these 
days, the people choose this guy or that guy, they are free to 
do what they want, but we want to appoint some people to help 
us in our plan in Iraq, I think we have to look for the good 
people who can help us and be a good influence on the Iraqi 
people. Now we need to understand this concept.
    Mr. Janklow. All of you emphasize that we must do something 
about the former police and the former military. Clearly the 
history in most countries, be it Japan, Germany or Panama, it 
doesn't make any difference, there is a long history of 
bringing the protecting forces back into play after some of the 
leadership and the troublemakers are eliminated or removed, not 
eliminated in the physical sense but removed from the 
possibility of being involved in control. My question is, the 
former police commissioner from New York testified today that 
they have 40,000 policemen employed back in Iraq. Is that a 
good start?
    Mr. Haidari. In Iraq, we need policemen and soldiers, at 
least 300,000.
    Mr. Janklow. You need 300,000 for a nation of 26 million?
    Mr. Haidari. We need them to help our administration and 
Iraqi people to reach the peace inside Iraq. I prefer in my 
opinion if we let our army be outside of the Iraqi cities. We 
don't want to see our army to have any conflict with the Iraqi 
people. We have army in Iraq, not policemen, so we want to 
depend on Iraqi police, not American soldiers. That is much 
better to us. Also, it is much better to us than asking Turkey 
and we have some differences now in Iraq about asking Turkey 
army to come to Iraq. Let us depend on Iraqi army.
    Mr. Janklow. Dr. Alarif, you say the Iraqi people don't 
like the police, so have the army do it. He says, they don't 
like the army, have the police do it.
    Ms. Alarif. No, no, he didn't say that, his English----
    Mr. Janklow. He said the Army should not be in the cities.
    Mr. Haidari. The American Army.
    Ms. Alarif. The American Army.
    Mr. Janklow. I apologize. I thought you meant the Iraqi 
army.
    Mr. Haidari. The American Army should not be in the cities.
    Ms. Alarif. We are in agreement.
    Mr. Haidari. Also, we don't need to invite Turkey army to 
come to Iraq. We want to depend on Iraqi army.
    Mr. Janklow. We agree with that.
    Chairman Tom Davis. I think we agree with that. Thank you 
very much. This has been very, very helpful to the committee as 
we move forward.
    I want to ask unanimous consent to put into the record a 
letter from Gary Sinise, a Tony and Emmy Award-winner and 
Academy Award nominee; he wrote the committee. Also, an article 
from Vanity Fair by Mr. Hitchens on the situation that I think 
will be helpful for the record. Without objection, these will 
be put into the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T1303.054
    
    [GRAPHIC] [TIFF OMITTED] T1303.055
    
    [GRAPHIC] [TIFF OMITTED] T1303.056
    
    [GRAPHIC] [TIFF OMITTED] T1303.057
    
    [GRAPHIC] [TIFF OMITTED] T1303.058
    
    [GRAPHIC] [TIFF OMITTED] T1303.059
    
    [GRAPHIC] [TIFF OMITTED] T1303.060
    
    [GRAPHIC] [TIFF OMITTED] T1303.061
    
    Chairman Tom Davis. Any other questions from committee 
members?
    [No response.]
    Chairman Tom Davis. Let me thank this panel. It has been 
very helpful to us in our deliberations. We appreciate your 
staying with us through the afternoon and being here to answer 
our questions. Your total testimony will be made a part of the 
record.
    Thank you all very much.
    The meeting is adjourned.
    [Whereupon, at 2:37 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [The prepared statements of Hon. Chris Chocola, Hon. 
Michael C. Burgess, Hon. Mike Rogers, Hon. Bill Shuster, and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T1303.062

[GRAPHIC] [TIFF OMITTED] T1303.063

[GRAPHIC] [TIFF OMITTED] T1303.066

[GRAPHIC] [TIFF OMITTED] T1303.067

[GRAPHIC] [TIFF OMITTED] T1303.068

[GRAPHIC] [TIFF OMITTED] T1303.069

[GRAPHIC] [TIFF OMITTED] T1303.064

[GRAPHIC] [TIFF OMITTED] T1303.065


</pre></body></html>
